OFFICE OF INSPECTOR GENERAL



Report on the Audit of USAID’s
Financial Statements for Fiscal
Years 2006 and 2005
AUDIT REPORT NO. 0-000-07-001-C
November 15, 2006




WASHINGTON, DC
   Office of Inspector General

   November 15, 2006

   MEMORANDUM

   TO:                  M/CFO/ICFO, Lisa D. Fiely

   FROM:                Deputy AIG/A, Alvin A. Brown, for Joseph Farinella /s/

   SUBJECT:             Report on the Audit of USAID’s Financial Statements for Fiscal Years 2006
                        and 2005

   With this memorandum, the Office of Inspector General (OIG) is transmitting its final report on the
   Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005. Under the Government
   Management Reform Act of 1994, USAID is required to prepare consolidated fiscal year-end
   financial statements. In accordance with OMB Circular A-136, USAID is also required to submit
   a Performance and Accountability Report, including audited financial statements, to the Office of
   Management and Budget (OMB) and the U.S. Department of the Treasury by November 15,
   2006.

   The OIG has issued unqualified opinions on all five of USAID’s principal financial statements for
   fiscal years 2006 and 2005.

   With respect to internal control, our report discusses one material internal control weakness and
   five reportable conditions identified during the audit. The material internal control weakness
   addresses USAID’s accounting for accruals. The reportable conditions address USAID’s 1)
   reconciliations of its fund balance with the U.S. Treasury, 2) reconciliations of its
   intragovernmental transactions, 3) controls over its Treasury symbols, 4) accounting for foreign
   currency transactions, and 5) Management’s Discussion and Analysis data.

   The results of our tests indicate that USAID substantially complied with Federal financial
   management systems requirements, accounting standards, and the U.S. Standard General
   Ledger at the transaction level, as required by Section 803(a) of the Federal Financial
   Management Improvement Act. Our report on compliance identifies areas for improvement over
   several financial system processes, not affecting substantial compliance, and two Antideficiency
   Act violations.

   This report contains seven recommendations to improve USAID’s internal control over financial
   reporting and the preparation of its annual financial statements.

   We appreciate the cooperation and courtesies that your staff extended to the OIG during the
   audit. The Office of Inspector General is looking forward to working with you on our audit of the
   fiscal year 2007 financial statements.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective................................................................................................................ 2 


Independent Auditor’s Report on USAID’s Financial Statements.............................. 3 


Report on Internal Control ............................................................................................. 4 


     USAID’s Accounting for Accruals
     Needs Improvement ................................................................................................... 5 


     USAID’s Process for Reconciling 

     its Fund Balance with the U.S. Treasury 

     Needs Improvement.................................................................................................... 7 


     USAID’s Intragovernmental Transactions
     Remain Unreconciled.................................................................................................. 8 


     USAID’s Controls Over Treasury 

     Symbols Need Improvement ....................................................................................... 9 


     USAID’s Process for Accumulating
     Foreign Currency Information ................................................................................... 11 


     Support and Quality of Performance 

     Data Used In the Management’s 

     Discussion & Analysis Need Improvement .............................................................. 12 


Report on Compliance with Laws and Regulations................................................... 14 


     Account De-obligation and Closing 

     Processes Need Improvement .................................................................................. 15 


     Lease Obligation Antideficiency Act 

     Violations................................................................................................................... 16


Evaluation of Management Comments ....................................................................... 18 


Appendix I – Scope and Methodology ........................................................................ 19 


Appendix II – Management Comments ....................................................................... 21 


Appendix III – Status of Prior Year Findings and Recommendations...................... 26 


Appendix IV – Financial Statements, Notes, and Required Supplementary

Information .................................................................................................................... 28 

SUMMARY OF RESULTS

In our opinion, USAID’s consolidated balance sheets, consolidated statements of
changes in net position, consolidated statements of net cost, combined statements of
budgetary resources, and consolidated statements of financing present fairly, in all
material respects, the financial position of USAID as of September 30, 2006 and 2005;
and its net cost, net position, and budgetary resources for the years then ended are in
conformity with generally accepted accounting principles.

Our audit identified one material internal control weakness and five reportable
conditions. The material internal control weakness relates to USAID’s accounting and
reporting of accruals.

The reportable conditions relate to USAID’s:

   •   Reconciliations of its fund balance with the U.S. Treasury
   •   Intragovernmental reconciliations
   •   Controls over Treasury symbols
   •   Accounting for foreign currency transactions
   •   Management’s Discussion and Analysis data

The results of our tests indicate that USAID substantially complied with Federal financial
management systems requirements, accounting standards, and the U.S. Standard
General Ledger at the transaction level, as required by Section 803(a) of the Federal
Financial Management Improvement Act. Our report on compliance identifies areas for
improvement over several financial system processes, not affecting substantial
compliance, and two Antideficiency Act violations.




                                                                                        1
BACKGROUND 

The United States Agency for International Development (USAID) was created in 1961
to advance the United States’ foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has an
overseas presence in approximately 90 countries, almost 50 of which have controller
operations. In fiscal year 2006, USAID had total budgetary resources of $14.5 billion.

Under the Government Management Reform Act of 1994, USAID is required to annually
submit audited financial statements to the Office of Management and Budget (OMB) and
the U.S. Treasury. Pursuant to this Act, for fiscal year 2006, USAID has prepared the
following:

      Consolidated Balance Sheets,
      Consolidated Statements of Changes in Net Position,
      Consolidated Statements of Net Cost,
      Combined Statements of Budgetary Resources,
      Consolidated Statements of Financing,
      Notes to the principal financial statements,
      Other Required Supplementary Information, and
      Management’s Discussion and Analysis.

AUDIT OBJECTIVE
Did USAID’s principal financial statements present fairly the assets, liabilities, net
position, net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary resources for fiscal years 2006 and 2005?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary resources as of September 30,
2006 and 2005 and for the years then ended.

In accordance with Government Auditing Standards, we have also issued reports (dated
November 15, 2006) on our consideration of USAID’s internal control over financial
reporting and on our tests of USAID’s compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.




                                                                                        2
Independent Auditor’s Report on
USAID’s Financial Statements
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2006 and 2005, and the consolidated statements of changes in net
position, consolidated statements of net cost, combined statements of budgetary
resources, and consolidated statements of financing of USAID for the years ended
September 30, 2006 and 2005.

We conducted our audits in accordance with auditing standards generally accepted in
the United States; Government Auditing Standards issued by the Comptroller General of
the United States; and the Office of Management and Budget (OMB) Bulletin No. 06-03.
Audit Requirements for Federal Financial Statements. Those standards require that we
plan and perform the audit to obtain reasonable assurance that the financial statements
are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit
also includes assessing the accounting principles used and the significant estimates
made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary resources as of September 30,
2006 and 2005 and for the years then ended.

Management’s Discussion and Analysis, Required Supplementary Information, and
other accompanying information contain a wide range of data, some of which are not
directly related to the financial statements. We do not express an opinion on this
information. However, we compared this information for consistency with the financial
statements and discussed the methods of measurement and presentation with USAID
officials. Based on this limited work, we found no material inconsistencies with the
financial statements or nonconformance with OMB guidance.

In accordance with Government Auditing Standards, we have also issued our reports,
dated November 15, 2006, on our consideration of USAID’s internal control over
financial reporting and on our tests of USAID’s compliance with certain provisions of
laws and regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.

/s/

USAID, Office of Inspector General
November 15, 2006




                                                                                        3
Report on Internal Control
We have audited the consolidated balance sheets of USAID as of September 30, 2006
and 2005. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, combined statements of budgetary resources, and
consolidated statements of financing for the fiscal years ended September 30, 2006 and
2005, and have issued our report thereon dated November 15, 2006. We conducted the
audits in accordance with generally accepted auditing standards; Government Auditing
Standards issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements.

In planning and performing our audits of USAID’s financial statements for the fiscal years
ended September 30, 2006 and 2005, we considered its internal control over financial
reporting by obtaining an understanding of the agency’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our system of internal
control testing to those controls necessary to achieve the objectives described in OMB
Bulletin 06-03. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), such
as those controls relevant to ensuring efficient operations. The objective of our audit
was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

Our consideration of internal control over financial reporting would not necessarily
disclose all matters in internal control over financial reporting that might be reportable
conditions. Under standards established by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of internal control that, in our judgment,
could adversely affect the Agency’s ability to record, process, summarize, and report
financial data consistent with the assertions by management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Because of inherent limitations in internal control, misstatements, losses, or
noncompliance may occur and not be detected. Our consideration of internal control
over financial reporting would not necessarily disclose all reportable conditions that are
also considered to be material weaknesses as defined above. We identified one matter
involving internal control and its operation that we consider to be a material weakness,
and five matters that we consider to be reportable conditions.

The material internal control weakness relates to USAID’s accounting and reporting of
accruals. This issue was also identified by USAID during its OMB Circular A-123
assessment. The reportable conditions relate to USAID’s:


                                                                                            4
   •   Reconciliations of its fund balance with the U.S. Treasury
   •   Intragovernmental reconciliations
   •   Controls over Treasury symbol information
   •   Accounting for foreign currency transactions
   •   Management’s Discussion and Analysis data

With respect to internal control related to performance measures included in the
Management’s Discussion and Analysis (MD&A) Section of USAID’s Performance and
Accountability Report, we obtained an understanding of the design of significant internal
controls relating to the existence and completeness assertions, as required by OMB
Bulletin 06-03, and determined whether they have been placed in operation. Our
procedures were not designed to provide assurance on internal control over reported
performance measures and, accordingly, we do not provide an opinion on such controls.

We also noted other matters involving the internal control over financial and performance
reporting which we reported to USAID management in a separate letter dated November
15, 2006.



Material Weakness
USAID’s Accounting for Accruals
Needs Improvement

Summary: USAID’s Accruals System in Phoenix produced erroneous information that
limited the ability of Cognizant Technical Officers (CTOs) to accurately calculate
estimates of accrued expenditures and accounts payable for recording in USAID’s
general ledger. In our testing of accruals in Washington, DC, the OIG determined that
Phoenix did not always produce obligation information with the level of detail or reliability
necessary for USAID’s CTOs to make informed quarterly accrual estimates, and
amounts identified as obligated in Phoenix did not always include contract modifications.
We also noted that accruals maintained in the Phoenix Accruals System did not always
post to the general ledger because of a programming error. Further, some USAID CTOs
used incorrect or inaccurate information in estimating some quarterly accruals. As a
result, USAID’s accrued expenditures and accounts payable contained inaccuracies,
and the OIG recommended a $123 million adjustment to more accurately reflect
USAID’s accrual activity as of September 30, 2006.

OMB’s Core Financial System Requirements stipulate that an agency’s core financial
system must be able to provide timely and useful financial information to support:
management’s fiduciary role; budget formulation and execution functions; fiscal
management of program delivery and program decision making; and internal and
external reporting requirements.       External reporting requirements include the
requirements for financial statements prepared in accordance with the form and content
prescribed by OMB, reporting requirements prescribed by Treasury, and legal,
regulatory and other special management requirements of the agency. The core
financial system must provide complete, reliable, consistent, timely and useful financial
management information on operations.


                                                                                           5
According to USAID’s Automated Directives System (ADS) 631, financial documentation
represents any documentation that impacts on or results in financial activity. It is not
limited to documentation within the financial management operations but includes any
source material resulting in a financial transaction. CTOs, Loan Officers, Grants
Officers, Strategic Objective teams, and others are responsible for retaining financial
documentation and ensuring its availability for audit. ADS 631 states that these
individuals must gather cost data—such as supporting project documentation, activity
reports, delivery reports, or fixed reoccurring expenses—for the quarterly accruals
exercise and then compare the data to payment histories and advances to estimate
quarterly accruals.

At USAID, accrued expenditures are accounting estimates of services or goods
rendered which have not yet been paid. In conducting quarterly accrual estimates,
USAID relied on the efforts of its CTOs at overseas missions and in Washington, DC.
The OIG found that amounts accrued via accrual worksheets prepared by CTOs
sometimes lacked sufficient documentation to support accrual estimates and that such
documentation could often not be produced subsequent to the recording of the
estimates.

Not all of the accruals generated by the Phoenix Accruals System were posted to the
general ledger for the fiscal year 2006 4th quarter. The OIG noted that only $2.1 billion
of the $2.2 billion generated by the Phoenix Accruals System were correctly batched and
processed in USAID’s general ledger. The difference was caused by a programming
error that USAID corrected before preparing its 4th quarter financial statements. USAID
subsequently posted an appended version of its accrual system that ultimately captured
the correct accrual amounts in the general ledger.

Obligation amounts recorded in the Phoenix Accruals System were not correctly
captured because periodic modifications to obligation amounts were not updated timely.
As a result, CTO accrual modifications and system estimates were not always based on
reliable unliquidated obligation information. We identified this condition in a significant
number of the items we reviewed in 2006, but did not identify this condition in previous
reports. With respect to CTO estimates for other accruals, we found documentation
errors, incorrect calculations, misinterpretations of grantee information, and incorrect
comparisons of estimated expenditure reports. Based on the projected errors of
accruals estimated by CTOs in Washington and the differences associated with
inaccurate obligations, the OIG recommended a $123 million adjustment to accounts
payable and accrued expenditures.

USAID has worked to improve the quality of its CTO information, allowing the OIG to
more easily locate the USAID managers responsible for maintaining accrual estimates
and to perform a more complete analysis of the accrual information. However, USAID
only trained 78 CTOs in Washington, DC during 2006 and some CTOs that we
contacted had still never been trained.

The OIG has made previous recommendations to correct deficiencies in the former
Accruals Reporting System1, and to ensure that CTOs were properly trained in the

1
 Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004, p. 7, November 14,
2005, http://www.usaid.gov/oig/public/fy06rpts/0-000-06-001-c.pdf


                                                                                            6
process of estimating accruals2. The calculations within the Phoenix Accruals System
that caused the majority of the problems in 2005 are now operating correctly. To
address the deficiencies of USAID’s current system for recording and processing
accruals, we are making the following recommendations:

    Recommendation No. 1.1: We recommend that USAID’s Office of the Chief
    Financial Officer prepare a quarterly reconciliation of its Phoenix Accruals System
    with the Phoenix general ledger, and document and resolve all differences.

    Recommendation No. 1.2: We recommend that USAID’s Office of the Chief
    Financial Officer update its Accruals training course to ensure that Cognizant
    Technical Officers can make reasonable accrual estimates when contract
    modifications result in changes to obligation levels.



Reportable Conditions
USAID’s Process for Reconciling
its Fund Balance with the U.S. Treasury
Needs Improvement (Repeat Finding)
Summary: USAID had large undocumented differences between its Fund Balance and
its cash balance reported by Treasury throughout 2006. As of September 30, 2006,
these differences totaled to a cumulative net value of $66 million. The differences
remained undocumented because USAID was not consistently investigating and
resolving reconciling items, and is not completing reconciliations of its Fund Balance in
accordance with Treasury Financial Manual (TFM) 2-5100. As a result, USAID recorded
adjustments at the 2006 fiscal year-end to ensure that its Fund Balance with the U.S.
Treasury reported on its Form 2108, Year End Closing Statement, agreed with the
balance in Treasury’s records, without fully documenting and investigating the reasons
for the differences.

U.S. Treasury reconciliation procedures state that an agency (1) may not arbitrarily
adjust its fund balance with the U.S. Treasury account, and (2) can adjust its fund
balance with the U.S. Treasury account balance only after clearly establishing the
causes for any errors and properly correcting those errors. Treasury’s guidance for
reconciling fund balances requires that Federal agencies research and resolve
differences reported by the U.S. Treasury on a monthly basis.

USAID Chief Financial Officer Bulletin 06-1001, Reconciliation With U.S. Treasury,
requires USAID to perform timely monthly reconciliations with the U.S. Treasury. The
Bulletin also requires a written justification for carrying forward unpaid and unsupported
transactions over 90 days old, provides specific written guidance for write-offs, and
requires a certification that reconciliations have been performed in accordance with TFM
Volume 1, Part 2-5100. Bulletin 06-1001 has not been fully implemented.


2
 Independent Auditor’s Report on USAID’s Financial Statements for Fiscal Years 2004 and 2003,
p. 12, November 15, 2004, http://www.usaid.gov/oig/public/fy05rpts/0-000-05-001-c.pdf


                                                                                           7
As of the fiscal 2006 year-end, USAID reported its Fund Balance as $19.3 billion - $66
million more than the balance reported by Treasury on its September 30, 2006 account
statement. This occurred partly because Treasury symbol changes were not routinely
updated to ensure that transactions in Phoenix were recorded against the correct
appropriation (see finding in Reportable Conditions Section). Also, $12 million of cash
transactions were fully processed at the Department of Treasury, as of the fiscal year
end, but remained in a suspense status at USAID pending additional information.
USAID could not identify the reasons for many other differences, including some items
that have not been reconciled with Treasury since 2002. For financial reporting
purposes, USAID adjusted its Fund Balance to match the cash balance reported by
Treasury without fully documenting the reasons for the unreconciled conditions.

USAID made some attempts to resolve unreconciled Treasury items by working with
accounting divisions in Washington, but did not always document the efforts made to
investigate and reconcile the differences. USAID’s overseas missions also continue to
have large unreconciled balances which are not resolved in a timely manner. Of the ten
missions that were audited, five had total unreconciled differences of approximately $50
million and one mission was not performing any fund balance reconciliations.

  Recommendation No. 2.1: We recommend that USAID’s Office of the Chief
  Financial Officer document monthly reconciliations of its Fund Balance with
  Treasury as required by TFM 2-5100, and ensure that overseas missions are
  performing and documenting monthly Fund Balance reconciliations.

  Recommendation No. 2.2: We recommend that USAID’s Office of the Chief
  Financial Officer implement policies to ensure that all transactions recorded in the
  general ledger are reported to Treasury on the SF 224 and that all differences and
  suspense items are investigated and resolved in a timely manner.

USAID’s Intragovernmental Transactions
Remain Unreconciled (Repeat Finding)
Summary: The U.S. Treasury reported a $2.8 billion net difference in intragovernmental
transactions between USAID and other Federal agencies at the 2006 fiscal year-end,
with an absolute value of $6.1 billion. OMB Circular A-136 requires Federal agencies to
perform quarterly reconciliations of intragovernmental transactions in accordance with
the FMS Federal Intragovernmental Transactions Accounting Policies Guide. The
differences between USAID’s records and those of its trading partners occurred because
USAID did not consistently reconcile material differences identified by FMS in its
quarterly Material Differences/Status of Disposition Certification (MD/SD) Report and
other differences equal to or greater than $50 million, and it did not consistently reconcile
other significant differences by reciprocal category with its Federal trading partners
throughout FY 2006. USAID did demonstrate significant progress from 2005, when
fiscal year-end unreconciled net differences were $6.0 billion. Until intragovernmental
transactions are reconciled, USAID’s financial statements are subject to error.

Treasury FMS has informed Federal agencies that if trading partner “confirmed
reporting” exceeds the $50 million threshold it has established, Agency CFOs will be
required to provide FMS a “plan of action” to address these differences, as required by


                                                                                           8
Treasury Financial Manual, Vol. I, Part 2-Chapter 4700, Section 4706.30, Agency
Reporting Requirements for the Financial Report of the United States Government.

USAID has made some progress in reconciling its trading partner activities and has
reduced the difference reported by Treasury by 46 % from the third quarter to the fourth
quarter of 2006. Significant differences persist, however. While some timing differences
may ultimately be resolved, differences due to accounting errors or different accounting
methodologies require a special effort by USAID and its trading partners for timely
resolution. The Federal Intragovernmental Transactions Accounting Policy Guide
suggests that agencies should work together to estimate accruals and to record
corresponding entries in each set of records so that they are in agreement and so that
long term accounting policy differences can be identified. Until these reconciliations are
complete, USAID’s year-end balances related to intragovernmental line items reported
on the financial statements are subject to error.

Although we identified $4 billion of unreconciled general fund transactions between
USAID and Treasury that are not required to be reconciled, FMS does suggest that
Federal agencies confirm that these differences represent general fund activities.
USAID did not consistently document these confirmations.

We made a recommendation to improve the intragovernmental reconciliation process in
our previous audit report3. We will not make a new recommendation, but will continue to
monitor USAID’s progress in reducing intragovernmental balances, in future audits.

USAID’s Controls Over Treasury
Symbols Need Improvement
Summary: USAID experienced difficulty accounting for the activity under its many
different Treasury symbols which provide the underlying support for its Statement of
Budgetary Resources. This occurred because the processes employed by USAID to
update and maintain information on appropriation Treasury symbols did not contain
adequate controls to consistently ensure their accuracy. As a result, USAID’s Treasury
symbol appropriation information in Phoenix required significant adjustments throughout
the year and impacted USAID’s ability to accurately report to OMB on its quarterly
budget activity.

Treasury symbols are numeric codes which contain unique accounting information that
identify: 1) a Federal agency, 2) a period of availability of funds, and 3) a four-digit
appropriation number. Under Section 511 of the Foreign Operations Appropriation Act
(P.L. 109-102 for 2006), USAID may extend the availability of its appropriations, as
identified by its Treasury symbols, by four years from the original appropriation before
the funds move to an expired status and become unavailable for new obligations.
Phoenix does not have the ability to automatically convert existing appropriations to
those with extended availability so Treasury symbol conversions are performed manually
at USAID.


3
 Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004, p. 9, November 14,
2005, http://www.usaid.gov/oig/public/fy06rpts/0-000-06-001-c.pdf



                                                                                            9
Like all Federal agencies, USAID must submit a Report on Budget Execution and
Budgetary Resources (SF 133) to OMB each quarter for every one of its open
appropriation Treasury symbols. These SF 133s are combined each quarter in
developing a Federal Agency’s Statement of Budgetary Resources. As a result, the
compilation of a Federal Agency’s SF 133s should generally agree with an Agency’s
Statement of Budgetary Resources. At year-end, Budgetary Resources are also
reported separately for certain Treasury symbols as Required Supplementary
Information in accordance with OMB Circular A-136.

USAID made significant adjustments to its Treasury symbol information in Phoenix
during the 4th quarter of 2006. These adjustments were necessary to correct
transactions posted to valid appropriations with invalid Treasury symbols. Errors with
Treasury symbol information occurred primarily because so many valid USAID
appropriation numbers change during their life to accommodate the Section 511
flexibility available to USAID. This requires USAID to account for two Treasury symbols
for every appropriation. This is difficult to manage within USAID, but Section 511
flexibility makes it even more difficult for other Federal agencies to stay updated on
USAID’s currently valid Treasury symbols when they use the Intragovernmental
Payment and Collection Process. Activity under this process appears first at Treasury,
then at USAID, and requires a reconciliation between USAID and Treasury appropriation
information to correct any errors.

When invalid appropriation Treasury symbols appeared in Phoenix, either internally or
as a result of intragovernmental activity, USAID did not effectively review or monitor the
transactions to ensure that the correct appropriations were impacted. USAID currently
has no process for reviewing the output related to valid and invalid Treasury symbols
and only makes corrections if errors are noted either during the process of reconciling
with U.S. Treasury information, or the process of preparing quarterly financial
statements.

CFO officials have expressed concerns with Section 511 authority granted to USAID that
requires the management of so many appropriation Treasury symbols. The officials
believe that, because Section 511 accounting conditions are not managed in other
Federal agencies, there is and will be no government-wide or core accounting system
approach to handling appropriations that change during their life. We therefore expect
Treasury symbol reporting errors to continue, but recognize that the process is almost
unmanageable from an accounting perspective without a significant financial and human
resource commitment. Some progress can be made immediately, however, so we are
making the following recommendation.

  Recommendation No. 3: We recommend that USAID’s Office of the Chief Financial
  Officer develop and implement monthly payment review procedures to identify
  transactions that have been posted in Phoenix to invalid appropriation Treasury
  symbols.




                                                                                       10
USAID’s Process for Accumulating
Foreign Currency Information
in Phoenix Needs Improvement
Summary: USAID’s process for accumulating foreign currency information in Phoenix
needs improvement. USAID prepares an adjustment using information reported via e-
mail from its overseas missions on a quarterly basis, instead of using foreign currency
information already in Phoenix. This is because USAID’s foreign currency information in
Phoenix is incomplete and inaccurate. As a result, USAID did not use Phoenix to assist
in compiling foreign currency information for its FY 2006 financial statements. The
quarterly email information does not report the balance per the mission’s books but
reports the balance per the mission’s bank statement. This process eliminates USAID’s
ability to separately identify interest earned and currency exchange gains or losses
affecting the accounts. As long as the information in Phoenix is incorrect, USAID will
continue to rely on external sources for foreign currency assets and liabilities, and will
not have complete accounting information.

USAID’s foreign currency balances represent cash held in local banks throughout the
world. These accounts are owned and managed by USAID on behalf of local
governments. As a result, USAID records an asset and a liability for the balances in
these accounts.

We observed that, despite the accounting migration to Phoenix, USAID continues to
collect foreign currency balance information by requesting the data from the Missions via
e-mail. Because Phoenix foreign currency information is considered to be unreliable,
many USAID missions maintain cuff records of the foreign currency accounts they
manage locally.       However, when USAID/Washington requests quarterly balance
information from these missions, it is only looking for the mission’s cash balance per the
mission’s bank statement. This would not allow the missions to account for reconciling
items between its bank statements and cuff records. To record this activity, USAID
makes one accounting entry for the net change in the cash balances between the
current quarter and the previous quarter by charging the foreign currency asset against
Other Liabilities, and records a second entry against Operating and Administrative
Expenses and Donated Revenue. By simply recording the differences in the account
value between quarters, USAID does not provide information on interest earned or on
the difference in the value of the cash balances due to currency market fluctuations.

We also noted that, in the event that a Mission fails to respond to the request,
M/CFO/CAR uses the amount reported on the R0010 (Trust Fund Status Report –
Status of Funds/U-106) report downloaded from USAID’s Phoenix reporting tool
(Business Objects Enterprise). Because Business Objects Enterprise contains the same
information as that recorded in Phoenix, the amounts reported on the R0010 are only as
reliable as the information in Phoenix. USAID’s total Foreign Currency asset balance, as
well as its corresponding liability balance as of September 30, 2006, was $327 million.

The Missions are not entering their foreign currency transactions in Phoenix because
staff members do not believe that the system is working properly. USAID agrees that
the transactions ideally should be processed by the system. We also inquired as to why
there was no entry posted to record the interest expense and the fluctuation in the


                                                                                       11
foreign currency. USAID responded by saying that the funds do not really belong to the
Agency, and that the CFO’s Office is only really interested in ensuring that the cash
balance is properly reflected, and that revenue and expenses are accurate in total. As a
result, USAID does not have a complete accounting of its foreign currency accounts, and
cannot identify the amount of interest earned on these accounts, or the periodic
differences associated with currency exchange gains and losses. USAID has already
instructed its overseas Missions to use Phoenix for all foreign currency transactions.

  Recommendation No. 4: We recommend that USAID’s Office of the Chief Financial
  Officer perform monthly reconciliations of local bank balances with the same
  information in Phoenix and record, in Phoenix, interest earned and gains or losses
  associated with foreign currency fluctuations for each of its foreign currency
  accounts.

Support and Quality of Performance
Data Used In the Management’s
Discussion & Analysis Need Improvement
Summary: OIG obtained an understanding of the significant internal controls of the FY
2006 performance measures reported in the MD&A section of USAID’s Performance and
Accountability Report and determined whether they were operational, as required by
OMB Bulletin 06-03. Our procedures were not designed to provide assurance on
internal controls over reported performance measures and, accordingly, we do not
provide an opinion on such controls. We reviewed the FY 2006 MD&A, and selected
data from the addendum to the FY 2005 Performance and Accountability Report, which
was issued in April 2006, and which provided final performance data for FY 2005.

Our review found that while USAID took actions to improve its controls over data
management, the Bureau needs to improve these controls to ensure that data submitted
to the missions’ Annual Report system are accurate and adequately supported, and that
required data quality assessments are performed.

In 7 missions reviewed, officials did not ensure the accuracy of reported data, as
required by USAID’s Automated Directives System 596. Specifically, for 19 of the 42
performance indicators we reviewed at the 7 missions, data from source documents did
not match the data presented in the addendum to the FY 2005 Performance and
Accountability Report. This occurred because, according to mission officials, managers
did not review data before input into the Annual Report system to ensure accuracy; staff
made data entry errors; and missions collected information by telephone or email without
subsequently reviewing supporting documentation.

In addition, at 4 of 7 missions, data quality assessments were not conducted in
accordance with Automated Directives System 203.3.8. These assessments should be
conducted at least every three years to determine the strengths and weaknesses of the
data in general, and whether the data can be trusted. Mission officials said, among
other causes, that these assessments were not conducted because they had overlooked
the requirement, did not have sufficient time to conduct assessments, or did not have a
Performance Management Plan prepared.

Based on our limited review, USAID cannot be reasonably assured that all performance


                                                                                     12
data reported in the MD&A section in USAID’s Performance and Accountability Report
are accurate. Without reliable information, stakeholders will not be able to make
informed decisions regarding USAID’s programs and budget. At present, USAID does
not require its bureaus and missions to certify whether Annual Report data has been
reviewed for accuracy and that data quality assessments have been performed at least
every three years.

      Recommendation No. 5: We recommend that USAID require all bureaus and
      missions to certify that performance data submitted for publication are accurate,
      adequately supported, and that the required data quality assessments have been
      performed.

This report is intended solely for the information and use of the management of USAID,
OMB and Congress, and is not intended to be and should not be used by anyone other
than those specified parties. This report is a matter of public record, however, and its
distribution is not limited.


/s/

USAID, Office of Inspector General
November 15, 2006




                                                                                      13
Report on Compliance with
Laws and Regulations
We have audited the consolidated balance sheets of USAID as of September 30, 2006
and 2005. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, combined statements of budgetary resources, and
consolidated statements of financing for the fiscal years ended September 30, 2006 and
2005, and have issued our report thereon. We conducted the audit in accordance with
generally accepted auditing standards. Government Auditing Standards, (issued by the
Comptroller General of the United States) and Office of Management and Budget (OMB)
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID’s
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations―noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 06-03,
including the requirements referred to in the Federal Financial Management
Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Under FFMIA, we are required to report whether USAID’s financial management
systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a) requirements. The results of our tests showed
that USAID is in substantial compliance with FFMIA Section 803(a).

Our tests disclosed instances of noncompliance considered to be reportable under
Government Auditing Standards, including Antideficiency Act violations. However, our
objective was not to provide an opinion on overall compliance with laws and regulations.
Accordingly, we do not express such an opinion.

OMB Circular A-123, Management’s Responsibility for Internal Control, implements the
requirements of the Federal Managers’ Financial Integrity Act (FMFIA). Appendix A of
OMB Circular A-123 contains an assessment process that management should
implement in order to properly assess and improve internal controls over financial
reporting. The assessment process should provide management with the information
needed to properly support a separate assertion on the effectiveness of the internal
controls over financial reporting, as a subset of the overall FMFIA report.

USAID elected to complete its assessment in accordance with OMB Circular A-123,
Appendix A over three years. This plan provides for identifying, testing, and assessing a
significant percentage of USAID’s key business processes and controls in each year and
demonstrates how USAID will meet the A-123, Appendix A requirements by September



                                                                                      14
2008.

USAID’s A-123 assessment process was implemented in substantial accordance with
the OMB-approved plan. USAID’s Statement of Assurance accurately reflects the
amount of work completed and the results of the assessment, and includes an
appropriate scope limitation.

Federal Financial Management Improvement Act of 1996
The results of our tests disclosed that USAID’s core financial system substantially
complied with the Office of Management and Budget’s (OMB) November 2001 Federal
financial management systems requirements. OMB issued new requirements in January
2006 and the results of our work related to these new requirements are documented in a
separate letter dated November 14, 2006. We also identified areas for improvement
over several financial system processes not affecting substantial compliance with
FFMIA.

Account De-obligation and Closing
Processes Need Improvement
Summary: USAID’s account de-obligation, budget carryover, and annual account
closing processes need improvement. FY 2005 budget and obligation post-closing
balances in Phoenix were not accurate because of obligation reporting issues between
USAID missions and USAID/Washington. This had occurred at a time in fiscal year
2006 when USAID was still not using Phoenix worldwide. Throughout fiscal year 2006,
USAID then experienced difficulty accounting for the budget activity providing the
underlying support for its Statement of Budgetary Resources. As a result of post-closing
problems, Phoenix budget and obligation opening balances at the start of fiscal year
2006 were not accurate. USAID later posted manual adjustments to reflect accurate
budget and obligation balances. Budget and obligation balances from seven of USAID’s
fund accounts were still not successfully carried forward at the beginning of FY 2007. As
a result, USAID continued to perform a manual adjustment for these seven fund
accounts at the start of FY 2007.

Core financial system requirements under FFMIA require Federal agency systems to
have the ability to:

•	 Collect accurate, timely, complete, reliable, and consistent information;
•	 Provide for adequate agency management reporting;
•	 Support government-wide and agency level policy decisions;
•	 Support the preparation and execution of agency budgets;
•	 Facilitate the preparation of financial statements, and other financial reports in
   accordance with Federal accounting and reporting standards;
•	 Provide information to central agencies for budgeting, analysis, and government-
   wide reporting, including consolidated financial statements; and
•	 Provide a complete audit trail to facilitate audits.

In accordance with ADS 621, deobligations are entered in Phoenix using information on
funding sources and fiscal year. For prior-year unilateral obligations, deobligations are



                                                                                      15
recorded as recoveries and returned to the correct appropriation. USAID’s CFO then
compiles a “Recoveries” report and requests apportionment from OMB to make the
funds available for re-obligation. Further, it states that, after program funds have been
deobligated, apportioned by OMB, and made available in the accounting system for
reprogramming, USAID will return 50 percent of each of its Bureau’s remaining current
year recoveries, after taking out amounts necessary to fund upward adjustments, and
100 percent of originating Bureau’s fund accounts that are designated for specific
Bureaus. Operating expense funds, however, are not available for return to recovering
offices since projected recoveries of prior year balances are incorporated into the
Operating Year Budget levels.

USAID had difficulty properly recording deobligated funds. We identified no activity
during the year in Account 4871 (Recoveries), and discovered that Phoenix was
systematically recording Recoveries of prior-year obligated funds improperly against
Account 4801 (Undelivered Orders – Obligations, Unpaid).

We noticed significant activity in Account 4119 (Other Appropriations Realized) not
supported by Treasury warrants and discovered that much of this activity should have
been posted to different accounts as part of the automated account closing in Phoenix.
The automated closing process in Phoenix contained errors that posted accounts more
regularly to 4119 than to the proper accounts, however, so USAID had to make manual
adjustments for this activity also.

Some USAID transactions systematically posted to the 2006 general ledger after the
financial statements were prepared, creating many differences between reported 2005
year-end balances and 2006 beginning balances. This occurred because USAID’s
general ledger remained open for new fiscal year 2005 activity after the 2005 financial
statements were prepared. USAID also did not have a policy to review and delete
unprocessed held transactions from Phoenix in a timely manner. Our analysis showed
that over 9,000 held and rejected transactions were residing in Phoenix as of October
20, 2006. USAID is currently developing policies to address the management of all held
and rejected documents.

  Recommendation No 6: We recommend that the Office of the Chief Financial
  Officer (a) research Phoenix problems causing manual adjustments to the account
  closing and deobligation processes and implement a plan to resolve these
  deficiencies in FY 2007 and (b) ensure that Phoenix properly records Recoveries of
  prior year obligations throughout the year.

Lease Obligation Antideficiency Act Violations
USAID incurred two Antideficiency Act violations when it improperly executed a lease for
office space outside of the Ronald Reagan Building during FY 2005. The lease
contained indemnification clauses that subjected USAID to unlimited liability and did not
contain language conditioning future lease payments as “subject to availability of funds.”
The results of these violations are documented in reports to the USAID Administrator
prepared by the Office of Inspector General and USAID General Counsel, as a result of
work conducted separately from this audit.




                                                                                       16
USAID also created separate administrative funds control violations when it executed
the Homer Building Lease without obligating funds for future lease costs. USAID/M/AS
had $2.03 million available in its operating expense budget at the 2005 fiscal year-end to
cover costs associated with USAID offices moving to the Homer Building. With
$579,000 originally obligated and the unobligated $2.03 million, USAID would have
sufficiently covered the $2.5 million originally intended for obligation. However, because
USAID did not obligate the entire $2.5 million as stated in its June 29, 2005 notification
to Congress, it does not appear that USAID was ready to execute a lease agreement for
outside office space.

USAID also did not record an obligation in Phoenix when it executed the Homer Building
Lease. As specified in Automated Directives System (ADS) 621.3.6, obligations are to
be recorded when the Federal government places an order for an item or service,
awards a contract, or enters into similar transactions that will require payments in the
same or a future period. ADS 634.3.5.2 then states that an administrative funds control
violation occurs in the following circumstances:

          a. Over-obligation or over-expenditure of a budget allowance,
          b. Obligations or expenditures in excess of an operational year budget,
          c. Obligations incurred prior to the commitment of funds, and
          d. Failure to record an obligation in the accounting system.

By signing a lease agreement prior to the recording of an obligation, USAID was in
violation of USAID funds control policies, as specified in (c) and (d) above. Congress
has since included bill language prohibiting USAID from using appropriated funds to
lease space domestically, in response to USAID’s attempt to lease additional space in
Washington, DC.

      Recommendation No. 7: We recommend that USAID’s Office of the Chief Financial
      Officer direct each of USAID’s missions and offices in Washington to ensure that
      obligations are not incurred prior to the commitment of funds and valid obligations
      are recorded in Phoenix as required by Automated Directive System 634.3.5.2.

This report is intended solely for the information and use of the management of USAID,
OMB and Congress, and is not intended to be and should not be used by anyone other
than those specified parties. This report is a matter of public record, however, and its
distribution is not limited.


/s/

USAID, Office of Inspector General
November 15, 2006




                                                                                        17
EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID’s management comments to the findings and
recommendations included in our draft report.         We have evaluated USAID
management comments on the recommendations and have reached management
decisions on all of the recommendations. The following is a brief summary of USAID’s
management comments on each of the recommendations included in this report and
our evaluation of those comments.

USAID management agreed to implement Recommendation No. 1.1 and have
already begun a reconciliation effort for January 2007.

USAID management agreed to implement Recommendation No. 1.2 and has agreed
to enhance training and identify other means to develop effective accruals practices

USAID management has agreed to implement Recommendation No. 2.1 and will
review its current procedures for consistency with Treasury guidance

USAID management has agreed to implement Recommendation No. 2.2.

USAID management has agreed to implement Recommendation No. 3 and intends to
identify processes that will ensure that all types of transactions are properly posted.

USAID management has agreed to implement Recommendation No. 4 and will
coordinate the validation of accounting information between USAID’s missions and its
central accounting ledgers.

USAID management has agreed to implement Recommendation No. 5 and will re
establish policies and procedures to ensure that accurate performance information is
documented and that required data quality assessments are performed.

USAID management has agreed to implement Recommendation No. 6. Efforts to
improve the overall management of Section 511 funding are underway.

USAID management has agreed to implement Recommendation No. 7. The CFO will
issue an immediate General Notice reminding all Agency personnel of the necessity to
ensure that all legal, regulatory, and internal USAID policies are followed for
compliance with funds control practices.




                                                                                      18
                                                                              APPENDIX I 

                                                                               Page 1 of 2 



SCOPE AND METHODOLOGY 

USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles, (2) establishing, maintaining
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are met, (3) ensuring that
USAID’s financial management systems substantially comply with FFMIA requirements,
and (4) complying with applicable laws and regulations.

The Office of Inspector General is responsible for obtaining reasonable assurance about
whether the financial statements are presented fairly, in all material respects, in
conformity with generally accepted accounting principles. The Office of Inspector
General is also responsible for (1) obtaining a sufficient understanding of internal control
over financial reporting and compliance to plan the audit, (2) testing whether USAID’s
financial management systems substantially comply with the three FFMIA requirements,
(3) testing compliance with selected provisions of laws and regulations that have a direct
and material effect on the financial statements and laws for which OMB audit guidance
requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Performance and Accountability Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence
supporting the amounts and disclosures in the financial statements, (2) assessed the
accounting principles used and significant estimates made by management, (3)
evaluated the overall presentation of the financial statements, (4) obtained an
understanding of internal control related to financial reporting (including safeguarding
assets), compliance with laws and regulations (including execution of transactions in
accordance with budget authority), and performance measures reported in
Management’s Discussion and Analysis of the Performance and Accountability Report,
(5) tested relevant internal controls over financial reporting and compliance, and
evaluated the design and operating effectiveness of internal controls, (6) considered the
process for evaluating and reporting on internal control and financial management
systems under the Federal Managers’ Financial Integrity Act, (7) tested whether
USAID’s financial management systems substantially complied with the three FFMIA
requirements, and (8) tested USAID’s compliance with selected provisions of the
following laws and regulations:

      Antideficiency Act
      Improper Payments Information Act
      Prompt Payment Act
      Debt Collection and Improvement Act
      Federal Credit Reform Act
      OMB Circular A-136
      OMB Circular A-123
      Foreign Assistance Act of 1961

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing to controls over financial reporting and compliance. Because of inherent


                                                                                         19
                                                                              APPENDIX I
                                                                               Page 2 of 2

limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient
for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2006 and 2005. We caution that noncompliance may occur and
not be detected by these tests and that such testing may not be sufficient for other
purposes.

In forming our opinion, the OIG considered potential aggregate errors exceeding $313
million for any individual statement to be material to the presentation of the overall
financial statements.

FFMIA
We assessed whether USAID complied with the Federal financial management systems
requirements under FFMIA. The Office of Management and Budget’s (OMB) Core
Financial System Requirements (CFSR) dated November 2001 were the required
standard that agencies were expected to meet in fiscal year 2006 even though the
CFSR were updated in January 2006.

In assessing USAID’s compliance with federal financial management systems
requirements, we evaluated the Agency’s Phoenix financial management system using
the updated January 2006 CFSR. To determine whether the Agency substantially
complied with system requirements, we assumed that if the Agency met an OMB 2006
requirement, then it met the equivalent 2001 requirement. In addition, for each January
2006 requirement that the Agency did not comply with, we tested whether the Agency
complied with the equivalent November 2001 requirement.

To perform our fieldwork we interviewed USAID staff and contract personnel and
reviewed documentation related to the capabilities of Phoenix. Documentation included
reports, system queries, system screen captures, system documentation, testing
documentation generated during system implementation, and documentation generated
for certification and accreditation activity. Scenario driven transactional testing was not
conducted.

MD&A
With respect to the Management’s Discussion and Analysis (MD&A), we gained an
understanding of USAID’s system of collecting and reporting performance information.
We did not assess the quality of the performance indicators and performed limited tests
to assess the controls established by USAID. We conducted a limited review of the
internal controls related to the existence and completeness assertions relevant to the
performance measures included in the MD&A.




                                                                                         20
                                                                             APPENDIX II 

                                                                             Page 1 of 5 



      MANAGEMENT COMMENTS


                                                                 November 10, 2006
MEMORANDUM

TO:         AIG/A, Joseph Farinella

FROM:       CFO, Lisa D. Fiely /s/

SUBJECT: Management Response to Draft Independent Auditor's Report on
         USAID's Financial Statements for Fiscal Years 2006 and 2005
         (Report No. 0-000-07-001-C)

Fiscal year 2006 was another significant year for federal financial management at
USAID. We are pleased that your draft report so fairly presents both our progress
and our remaining challenges. We are extremely pleased that you are able to issue
unqualified opinions on all of USAID's five principal financial statements. Thank
you for the OIG’s dedication and cooperation throughout the audit process and the
professional counsel and support the auditors continue to provide. The
acknowledgements of the Agency’s improvements in financial systems and
processes throughout the report are greatly appreciated.

Following are our comments and management decisions regarding the findings
and proposed audit recommendations:

Material Weakness: USAID’s Accounting for Accruals Needs Improvement.

Recommendation 1.1: We recommend that USAID’s Office of the Chief Financial
Officer prepare a quarterly reconciliation of its Phoenix Accruals System with the
Phoenix general ledger, document and resolve all differences.

Management Decision: We agree to implement the recommendation. We have
already commenced a reconciliation effort which will be demonstrated during
January 2007 and will be accomplished in each subsequent accruals cycle. Target
completion date is January 31, 2007.



                                                                                21 

                                                                               APPENDIX II 

                                                                               Page 2 of 5 



Recommendation 1.2: We recommend that USAID’s Office of the Chief Financial
Officer update its Accruals training course to ensure that Cognizant Technical
Officers can make reasonable accrual estimates when contract modifications result
in changes to obligation levels.

Management Decision: We agree to implement this recommendation.
Discussions between the CFO’s office and OIG have led to an understanding that
this is a multifaceted issue that will require collaboration across the Agency. In
addition, training of CTOs in the area of accruals was identified through our own
A-123 assessment as a material weakness and we are in the process of putting
together a corrective action plan to address the issue. We will move to review and
enhance training and identify other means to improve recognition of the need for
effective accrual practices. Target completion date is September 30, 2007.

Reportable Condition: USAID’s Process for Reconciling its Fund Balance
with the U.S. Treasury Needs Improvement.

Recommendation 2.1: We recommend that USAID’s Office of the Chief Financial
Officer document monthly reconciliations of its Fund Balance with Treasury as
required by TFM 2-5100, and ensure that overseas missions are performing and
documenting monthly Fund Balance reconciliations.

Management Decision: We agree to implement the recommendation. The CFO’s
Office will review current procedures for consistency with the Treasury guidance
and modify the procedures as appropriate. We will also consider alternatives to
ensure mission reconciliation compliance. Target completion date is September
30, 2007.

Recommendation 2.2: We recommend that USAID’s Office of the Chief Financial
Officer implement policies to ensure that all transactions recorded in the general
ledger are reported to Treasury on the SF 224 and that all differences and suspense
items are investigated and resolved in a timely manner.

Management Decision: We agree to implement the Recommendation. Target
completion date is September 30, 2007.




                                                                                 22 

                                                                                  APPENDIX II 

                                                                                  Page 3 of 5 


Reportable Condition: USAID’s Intragovernmental Transactions Remain
Unreconciled.

There are no recommendations associated with this Reportable Condition. The
CFO implemented corrective actions related to two audit recommendations issued
under Fiscal Years 2004 and 2005 GMRA audit reports and will continue to
implement improvements in this area.

Reportable Condition: USAID’s Control Over Treasury Symbols Need
Improvement.

Recommendation 3: We recommend that USAID’s Office of the Chief Financial
Officer develop and implement monthly payment review procedures to identify
transactions that have been posted in Phoenix to invalid appropriation Treasury
symbols.

Management Decision: We concur with the recommendation. In addition to
reviewing procedures related to payment transactions, it is our intent to identify
processes that will ensure that all types of transactions are properly identified and
posted. Where corrective actions are necessary, the CFO’s Office will resolve
discrepancies as quickly as possible. Efforts to improve interfacing of transactions
from the Department of Health and Human Services related to grant processing are
currently underway and these actions are expected to correct this finding. Target
completion date is September 30, 2007.

Reportable Condition: USAID’s Process for Accumulating Foreign Currency
Information in Phoenix Needs Improvement.

Recommendation 4: We recommend that USAID’s Office of the Chief Financial
Officer perform monthly reconciliations of local bank balances with the same
information in Phoenix and record, in Phoenix, interest earned and gains or losses
associated with foreign currency fluctuations for each of its foreign currency
accounts.

Management Decision: We agree to implement the recommendation. The CFO’s
Phoenix team has been charged with responsibility for reviewing foreign currency
accounting in Phoenix and assuring that foreign currency accounting is improved
in the upcoming year. In the meantime, we will coordinate validation of
accounting information between missions and our central accounting ledgers
Target completion date is September 30, 2007.

                                                                                   23 

                                                                                 APPENDIX II 

                                                                                 Page 4 of 5 



Reportable Condition: USAID’s Support and Quality of Performance Data
Used in MD&A Need Improvement.

Recommendation 5: We recommend that USAID require all bureaus and missions
to certify that performance data submitted for publication are accurate, adequately
supported, and that the required data quality assessments have been performed.

Management Decision: We concur with this recommendation. Recognizing that
accurate and verifiable performance information is critical to management of the
Agency, USAID will re-establish policies and procedures to ensure that accurate
performance information is documented and that required data quality assessments
are performed. Also, USAID is currently going through a restructuring exercise to
ensure that all functional responsibilities are properly assigned to responsible units
within the Agency. Once this is completed, we can assign responsibility for this
action to the appropriate unit. Target completion date is September 30, 2007.

FFMIA Noncompliance: Account De-obligation and Closing Processes Need
Improvement.

Recommendation 6: We recommend that the Office of the Chief Financial Officer
(a) research Phoenix problems causing manual adjustments to the account closing
and deobligation processes and implement a plan to resolve these deficiencies in
FY 2007 and (b) ensure that Phoenix properly records Recoveries of prior year
obligations throughout the year.

Management Decision: We agree to implement the recommendation. Efforts to
improve the overall management of Section 511 in the Phoenix accounting system
operations are underway and are expected to improve overall operation of this
authority inside the core accounting system. Target completion date is March 31,
2007.

Antideficiency Act Noncompliance: Lease Obligation Antideficiency Act
Violations.

Recommendation 7: We recommend that USAID’s Office of the Chief Financial
Officer direct each of USAID’s missions and offices in Washington to ensure that
obligations are not incurred prior to the commitment of funds and valid obligations
are recorded in Phoenix as required by Automated Directive System 634.3.5.2.



                                                                                    24 

                                                                              APPENDIX II 

                                                                              Page 5 of 5 



Management Decision: We agree to implement the recommendation. The CFO
will issue an immediate General Notice reminding all Agency personnel of the
necessity to ensure that all legal, regulatory, and internal USAID policies are
followed for compliance with funds control practices. Target completion date is
December 15, 2006.

In closing, I would like to restate USAID’s commitment to continual improvement
in financial management. I intend to ensure that all necessary steps are taken to
institutionalize strong financial management performance throughout the Agency.
We will continue the improvements made in the last few years as we work further
to develop and implement long-term solutions to address the issues cited in your
report. The completion of the implementation of our worldwide financial
management system, Phoenix, during FY 2006 has been the critical first step in a
strategy of consistent improvement of financial management resources at USAID
that will continue for years to come.




                                                                                  25 

                                                                                 APPENDIX III
                                                                                 Page 1 of 2



STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of six months after a final report is issued. Corrective action
should proceed as rapidly as possible. Several audit recommendations directed to
USAID from prior audits either have not been corrected or final action has not been
completed as of September 30, 2006. We have also noted where final action was taken
subsequent to fiscal year-end but prior to the date of this report.

Status of 2005 Findings and Recommendations
Audit of USAID’s Financial Statements for Fiscal Years 2005 and 2004, Audit Report No.
0-000-06-001-C, November 14, 2005

   Recommendation No. 1: We recommend that USAID’s Office of the Chief Financial
   Officer modify USAID’s interface between the Accruals Reporting System and the
   USAID accounting system general ledger so that it correctly calculates and posts
   accrual information and that it establishes a review mechanism in the Accruals
   Reporting System to review accrual information for propriety before it is posted to the
   general ledger.

This recommendation is closed.       We have issued an updated finding and
recommendation related to the new Phoenix Accruals System.

   Recommendation No. 2: We recommend that the Office of the Chief Financial Officer
   ensure that USAID financial managers and mission controllers implement the
   reconciliation guidelines specified by Chief Financial Officer Bulletin No. 06-1001,
   Reconciliation with U. S. Treasury, dated October 2005 to ensure Fund Balance with
   Treasury accounts are reconciled in a timely manner, reconciling items are
   investigated and resolved, and that adequate documentation is retained to support
   the reconciliation procedures performed.

This recommendation is pending final action by USAID.

   Recommendation No 3: We recommend that USAID’s Office of the Chief Financial
   Officer develop a system for reviewing transactions reported under Trading Partner
   99 to ensure that they are properly classified and appropriately reported, as
   recommended by section 4706.30 of TFM 2-4700, “Agency Reporting Requirements
   for the Financial Report of the United States Government.”

This recommendation is closed.




                                                                                       26 

                                                                        APPENDIX III
                                                                        Page 2 of 2
   USAID’s Process for Recognizing and Reporting Its Overseas Accounts Receivable
   Needs Improvement (No recommendation)

This finding was not reported in 2006.

Federal Financial Management Improvement Act Noncompliance (No recommendations)

   •	 Phoenix is Not Fully Deployed, but Progress is Being Made
   •	 Legacy Financial Systems at Overseas Missions Did Not Comply With U.S.
      Government Standard General Ledger at the Transaction Level
   •	 Financial Reporting Capabilities Need Improvement

In 2006, Phoenix was fully deployed as USAID’s worldwide accounting system.
Accounting transactions entered by overseas missions now comply with U.S. Standard
General Ledger requirements at the transaction level. USAID has also increased the
number of standard reports now available to users through its Business Objects
software.


Unresolved Prior Year Findings and Recommendations
Report on USAID’s Consolidated Financial Statements, Internal Controls and
Compliance for Fiscal-Year 2002, Audit Report No. 0-000-03-001-C, January 24, 2003

   Recommendation No. 2: We recommend that the Chief Financial Officer:

       2.2 Reconcile the mission adjustment account in the general ledger to the
           cumulative amounts in the mission ledgers and resolve differences between
           the general ledger and the mission ledgers.

This recommendation is pending final action by USAID.




                                                                                 27 

                                                                                                               APPENDIX IV
                                                                                                                    1 of 50



FINANCIAL STATEmENTS

                                                  u.S.Agency for International development
                                                  CONSOLIDATED BALANCE SHEET
                                                     As of September 30, 2006 and 2005
                                                            (dollars in Thousands)

                                                                                              FY 2006        FY 2005
 ASSETS:
 Intragovernmental:
         Fund balance with Treasury (Note 2)                                                 $ 19,333,383   $ 17,503,843
         Accounts receivable (Note 3)                                                                 220        823,246
         Other (Note 4)                                                                            24,874         30,575
    Total Intragovernmental                                                                    19,358,477     18,357,664


        Cash and Other monetary Assets (Note 5)                                                   327,598        283,002
        Accounts receivable, Net (Note 3)                                                          91,173         79,617
        direct Loan and Loan Guarantees, Net (Note 6)                                           4,810,615      5,100,249
        Inventory and related Property, Net (Note 7)                                               53,345         44,122
        General Property, Plant, and Equipment, Net (Notes 8 and 9)                               103,994         96,172
        Advances and Prepayments (Note 4)                                                         405,898        749,993
    Total Assets                                                                             25,151,100      24,710,819


 LIABILITIES (Note 16):
    Intragovernmental:
        Accounts Payable (Note 10)                                                                 62,076         24,232
        debt (Note 11)                                                                            474,055        422,602
        due to u.S.Treasury (Note 11)                                                           4,491,077      5,311,661
        Other (Notes 12)                                                                           42,651         30,510
    Total Intragovernmental                                                                     5,069,859      5,789,005


    Accounts Payable (Note 10)                                                                  2,267,721      3,180,592
    Loan Guarantee Liability (Note 6)                                                           1,660,909      1,562,485
    Federal Employee and Veteran’s benefits (Note 14)                                              23,438         23,726
    Other (Notes 12, 13, and 14)                                                                  428,788        390,335
    Total Liabilities                                                                          9,450,715     10,946,143


    Commitments and Contingencies (Note 15)                                                         3,000             –


 NET POSITION:
   unexpended Appropriations                                                                   14,334,819     13,004,174
   Cumulative results of Operations                                                             1,362,566        760,502
    Total Net Position                                                                       15,697,385      13,764,676


 Total Liabilities and Net Position                                                          $25,151,100    $24,710,819

The accompanying notes are an integral part of these statements.




                                                                                                                           28
                                                                                               APPENDIX IV
                                                                                                    2 of 50

                                       U.S.Agency for International Development
                                     CONSOLIDATED STATEmENT OF NET COST
                                    For the Years Ended September 30, 2006 and 2005
                                                  (Dollars in Thousands)

 GOAL                                                                                FY 2006             FY 2005
 Regional Stability
    Gross Costs                                                                  $     670,710       $     784,590
    Less: Earned revenues                                                                  (859)               (624)
    Net Program Costs                                                                  669,851             783,966

 Counterterrorism
    Gross Costs                                                                        640,971             887,866
    Less: Earned revenues                                                                  (489)               (413)
    Net Program Costs                                                                  640,482             887,452

 International Crime and Drugs
    Gross Costs                                                                        100,596             217,697
    Less: Earned revenues                                                                  (229)               (385)
    Net Program Costs                                                                  100,367             217,311

 Democracy and Human Rights
    Gross Costs                                                                       1,017,380           1,196,972
    Less: Earned revenues                                                                (3,682)             (5,015)
    Net Program Costs                                                                 1,013,698           1,191,958

 Economic Prosperity and Security
    Gross Costs                                                                       3,528,481           3,942,326
    Less: Earned revenues                                                               (12,552)             (7,522)
    Net Program Costs                                                                 3,515,929           3,934,804

 Social and Environmental Issues
    Gross Costs                                                                       3,781,302           4,297,366
    Less: Earned revenues                                                              (184,887)            (66,525)
    Net Program Costs                                                                 3,596,415           4,230,840

 Humanitarian Response
    Gross Costs                                                                        802,972            1,188,454
    Less: Earned revenues                                                                  (998)           (193,809)
    Net Program Costs                                                                  801,974             994,645

 management and Organizational Excellence
    Gross Costs                                                                         15,065              14,686
    Less: Earned revenues                                                                   (57)                 (37)
    Net Program Costs                                                                   15,008              14,649
 Net Costs of Operations (Notes 17 and 18)                                       $ 10,353,724        $12,255,626

The accompanying notes are an integral part of these statements.




                                                                                                            29
                                                                                                               APPENDIX IV
                                                                                                                    3 of 50

                                      U.S.Agency for International Development

                              CONSOLIDATED STATEmENT OF CHANGES IN NET POSITION

                                   For the Years Ended September 30, 2006 and 2005

                                                 (Dollars in Thousands)


                                                                             FY 2006                           FY 2005
                                                       All Other                        Consolidated       Consolidated
                                                        Funds            Eliminations      Total              Total
 Cumulative Results of Operations:
   beginning balances                                 $      760,502     $              $      760,502     $      660,493
   Adjustments:                                                                                      –
       Changes in Accounting Principles                             –                                –                   –
       Corrections of Errors                                        –                                –                   –
    beginning balances, as adjusted                          760,502                           760,502            660,493

 Budgetary Financing Sources:
       Other Adjustments                                           –                                 –                  –
       Appropriations used                                 9,675,521                         9,675,521         11,065,445
       Non-exchange revenue                                        –                                 –                  –
       donations and Forfeitures of Cash and                  71,962                            71,962            109,782
           Cash Equivalents
       Transfers-in/out without reimbursement              1,189,017                         1,189,017          1,165,437
       Other                                                       –                                 –                  –
 Other Financing Sources (Non-Exchange):
       donations and Forfeitures of Property                       –                                 –                  –
       Transfers-in/out without reimbursement                      –                                 –             (1,823)
       Imputed Financing                                      19,288                            19,288             16,794
       Other                                                       –                                 –                  –
    Total Financing Sources                                10,955,788                        10,955,788         12,355,635
    Net Cost of Operations                                (10,353,724)                      (10,353,724)       (12,255,626)
    Net Change                                               602,064                           602,064            100,009

 Cumulative Results of Operations                          1,362,566                         1,362,566            760,502

 Unexpended Appropriations:
   beginning balance                                      13,004,174                        13,004,174         13,395,387
   Adjustments:
       Change in Accounting Principle                               –                                 –                 –
       Corrections of Errors                                        –                                 –          (383,145)
    beginning balance, as Adjusted                        13,004,174                        13,004,174         13,012,242

 budgetary Financing Sources:
        Appropriations received                           10,238,890                        10,238,890          10,048,521
        Appropriations Transferred in/out                    845,076                           845,076           2,070,251
        Other Adjustments                                    (77,800)                          (77,800)         (1,061,395)
        Appropriations used                               (9,675,521)                       (9,675,521)        (11,065,445)
    Total budgetary Financing Sources                      1,330,645                         1,330,645             (8,068)
    Total unexpended Appropriations                       14,334,819                        14,334,819         13,004,174

 Net Position                                         $15,697,385        $               $15,697,385       $ 13,764,676


The accompanying notes are an integral part of these statements.




                                                                                                                              30
                                                                                             APPENDIX IV
                                                                                                  4 of 50


                                        U.S.Agency for International Development

                                   COmBINED STATEmENT OF BUDGETARY RESOURCES

                                     For the Years Ended September 30, 2006 and 2005

                                                   (Dollars in Thousands)


                                                                      FY 2006                      FY 2005
                                                                              Credit                         Credit
                                                                             Program                        Program
                                                              Budgetary      Financing     Budgetary        Financing
Budgetary Resources:
   unobligated balance, brought forward, October 1:          $ 3,262,407     $ 1,024,789   $ 2,437,323    $ 1,001,713
   recoveries of prior year unpaid obligations                   276,771               –     1,138,496              –
   budget Authority
      Appropriation                                            10,321,277              –    10,116,585                 –
      borrowing Authority                                               –         52,026         2,000           310,947
      Contract Authority                                                –              –             –                 –
      Spending Authority from Offsetting Collections
      Earned                                                           –               –             –                 –
          Collected                                              862,464         447,625     1,443,194           421,647
          Change in receivables from Federal Sources               3,620               –           351                 –
      Change in unfilled Customer Orders
          Advance received                                              –             –              –                   –
          Without Advance from Federal Sources                      4,652             –          3,021                   –
      Anticipated for rest of year,Without Advances                     –             –              –                   –
      Previously unavailable                                            –             –              –                   –
      Expenditure Transfers from Trust Funds                            –             –              –                   –
      Subtotal                                                 11,192,013        499,651    11,565,151           732,594
   Nonexpenditure Transfers, Net, Anticipated and Actual         (332,548)             –      (273,731)                –
   Temporarily not Available Pursuant to Public Law                     –              –             –                 –
   Permanently not Available                                   (1,414,341)             –    (1,779,260)                –
Total Budgetary Resources                                     12,984,302      1,524,440    13,087,979        1,734,307

Status of Budgetary Resources:
   Obligations Incurred:
       direct                                                   9,001,401        101,835     9,756,791           709,518
       reimbursable                                                85,531              –        59,212                 –
      Subtotal                                                  9,086,932        101,835     9,816,003           709,518
   unobligated balance:
      Apportioned                                               3,885,852      1,422,605     3,262,407        1,024,789
      Exempt from Apportionment                                         –              –             –                –
      Subtotal                                                  3,885,852      1,422,605     3,262,407        1,024,789
   unobligated balance not Available                               11,518              –         9,569                –
Total Status of Budgetary Resources                           12,984,302      1,524,440    $13,087,979       1,734,307

                                                                                                     (continued on next page)




                                                                                                              31
                                                                                                                       APPENDIX IV
                                                                                                                            5 of 50


                                      U.S.Agency for International Development

                            COmBINED STATEmENT OF BUDGETARY RESOURCES (continued)

                                   For the Years Ended September 30, 2006 and 2005

                                                 (Dollars in Thousands)


                                                                                 FY 2006                        FY 2005
                                                                                         Credit                         Credit
                                                                                        Program                        Program
                                                                         Budgetary      Financing      Budgetary       Financing

 Change in Obligated Balance:
   Obligated balance, Net
      unpaid Obligations, brought Forward, October 1                      10,287,030          3,288     10,824,552          11,031
      Less: uncollected Customer Payments from
          Federal Sources, brought Forward, October 1                        (11,306)             –          (8,284)              –
        Total unpaid Obligated balance, Net                               10,275,724          3,288     10,816,266           11,031
    Obligations Incurred Net (+/-)                                         9,086,932        101,835      9,120,171          709,517
    Less: Gross Outlays                                                   (7,296,208)      (101,352)    (8,275,519)        (717,260)
    Obligated balance Transferred, Net
        Actual Transfers, unpaid Obligations (+/-)                                 –              –               –               –
        Actual Transfers, uncollected Customer Payments
            from Federal Sources, (+/-)                                            –              –               –               –
            Total unpaid Obligated balance Transferred, Net                        –              –               –               –
    Less: recoveries of Prior Year unpaid Obligations,Actual                (276,771)             –      (1,138,496)              –
    Change in uncollected Customer Payments from Federal Sources (+/-)        (8,264)             –          (3,021)              –
    Obligated balance, Net, End of Period
        unpaid Obligations                                                11,170,983          3,772     10,287,030            3,288
        Less: uncollected Customer Payments from Federal Sources             (19,930)             –        (11,306)               –
        Total, unpaid Obligated balance, Net, End of Period               11,151,053          3,772     10,275,724            3,288

 Net Outlays:
   Gross Outlays                                                           7,926,208        101,352       8,275,519         717,260
   Less: Offsetting Collections                                             (861,043)      (447,625)     (1,441,693)       (421,647)
   Less: distributed Offsetting receipts                                     (41,784)             –        (195,568)              –
 Net Outlays                                                             $ 7,023,381    $ (346,273)    $ 6,638,258     $   295,613

The accompanying notes are an integral part of these statements.




                                                                                                                                       32
                                                                                                                      APPENDIX IV
                                             U.S.Agency for International Development                                      6 of 50
                                          CONSOLIDATED STATEmENT OF FINANCING
                                          For the Years Ended September 30, 2006 and 2005
                                                        (Dollars in Thousands)


                                                                                                                    FY 2006          FY 2005
 Resources Used to Finance Actvities:
    Budgetary Resources Obligated
       Obligations Incurred                                                                                         $ 9,188,767    $ 10,525,521
          Appropriations Transferred to/from Other Agencies (net)                                                     2,443,013       2,517,433
        Total Obligations Incurred                                                                                   11,631,780       13,042,954

        Less: Spending Authority from Offsetting Collections and recoveries                                          (1,595,132)      (3,006,709)

                Spending Authority Transferred to/from Other Agencies (net)                                            (206,763)         680,727
            Total Spending Authority from Offsetting Collections and recoveries                                      (1,801,895)      (2,325,982)
        Obligations Net of Offsetting Collections and recoveries                                                      9,829,885       10,716,972
        Less: Offsetting receipts                                                                                        41,784          195,568
        Net Obligations                                                                                               9,871,669       10,912,540


    Other Resources

       Transfers in/out without reimbursement (+/-)                                                                           –            (1,823)

       Imputed Financing From Costs Absorbed by Others                                                                   19,288            16,794

        Other (+/-)                                                                                                           –                 –

        Net other resources used to finance activities                                                                   19,288            14,971
 Total Resources Used to Finance Activities                                                                          9,890,957      10,927,511

 Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources Obligated for Goods, Services and benefits Ordered, but not yet Provided (+/-)         88,932          468,419
    resources that Fund Expenses recognized in Prior Periods                                                             (1,952)          (5,731)
    budgetary Offsetting Collections and receipts that do not Affect Net Cost of Operations                                   –                –
       Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy            1,173,507        1,283,309
       Other                                                                                                           (122,998)        (307,506)
    resources that Finance the Aquistion of Assets                                                                      (55,175)         (47,894)
    Other resources or Adjustments to Net Obligated resources that do not Affect Net Cost of Operations (+/-)          (390,218)        (411,387)
 Total Resources Used to Finance Items Not Part of Net Cost of Operations                                              692,096          979,210
 Total Resources Used to Finance Net Cost of Operations                                                             10,583,053      11,906,721


 Components of the Net Cost of Operations that will not Require or Generate Resources
 in the Current Period:
     Components Requiring or Generating Resources in Future Periods:
        Increase in Annual Leave Liability                                                                                4,265           3,475
        upward/downward reestimates of Credit Subsidy Expense (+/-)                                                    (274,319)        320,093
        Increase in Exchange revenue receivable from the Public                                                               –               –
      Total Components of Net Cost of Operations that will require or Generate resources in Future Periods             (270,054)        323,568
    Components not Requiring or Generating Resources:
      depreciation and Amortization                                                                                      29,567            22,754
      revaluation of Assets or Liabilities (+/-)                                                                          8,778               810
      Other (+/-)                                                                                                         2,380             1,773
        Total Components of Net Cost of Operations that will not require or Generate resources                           40,725            25,337
    Total Components of the Net Cost of Operations that will not Require or                                           (229,329)         348,905
    Generate Resources in the Current Period
 Net Cost of Operations                                                                                            $ 10,353,724    $ 12,255,626

The accompanying notes are an integral part of these statements.




                                                                                                                                      33
                                                                                                              APPENDIX IV
                                                                                                                   7 of 50



NOTES TO THE FINANCIAL
STATEmENTS
NOTE 1. SUmmARY OF SIGNIFICANT ACCOUNTING POLICIES

A. BASIS OF PRESENTATION                                     Support Fund, development Assistance, Assistance for the
                                                             New Independent States of the Former Soviet union,Special
The accompanying principal financial statements              Assistance Initiatives,International disasterAssistance,Child
(statements) report uSAId’s financial position and results   Survival and disease, Transition Initiatives, and direct and
of operations. They have been prepared using uSAId’s         Guaranteed Loan Programs. This classification is consistent
books and records in accordance with Agency accounting       with the budget of the united States.
policies, the most significant of which are summarized in
                                                             Iraq Relief and Reconstruction Fund
this note. The statements are presented in accordance
with the guidance and requirements of the recently issued    This fund supports necessary expenses related to providing
Office of management and budget (Omb) Circular A-136,        humanitarian assistance in and around Iraq and to carrying
Financial reporting requirements, which incorporates         out the purposes of the Foreign Assistance Act of 1961
and updates bulletin 01-09, Form and Content of Agency       for rehabilitation and reconstruction in Iraq. These include
Financial Statements, and the Government management          costs of: (1) water/sanitation infrastructure; (2) feeding
reform Act of 1994.                                          and food distribution; (3) supporting relief efforts related
                                                             to refugees, internally displaced persons, and vulnerable
uSAId accounting policies follow generally accepted
                                                             individuals, including assistance for families of innocent Iraqi
accounting principles for the Federal government, as
                                                             civilians who suffer losses as a result of military operations;
recommended by the Federal Accounting Standards
                                                             (4) electricity; (5) healthcare; (6) telecommunications;
Advisory board (FASAb). The FASAb has been recognized
                                                             (7) economic and financial policy; (8) education; (9)
by the American Institute of Certified Public Accountants
                                                             transportation; (10) rule of law and governance; (11)
(AICPA) as the official accounting standard set for
                                                             humanitarian de-mining; and (12) agriculture.
the Federal government. These standards have been
agreed to, and published by the director of the Office       Economic Support Fund
of management and budget, the Secretary of the Treasury,
and the Comptroller General.                                 Programs funded through this account provide economic
                                                             assistance to select countries in support of efforts to
                                                             promote stability and u.S. security interests in strategic
                                                             regions of the world.
B. REPORTING ENTITY
                                                             Development Assistance
Established in 1961 by President John F. Kennedy, uSAId
is the independent u.S. Government agency that provides      This program provides economic resources to developing
economic development and humanitarian assistance to          countries with the aim of bringing the benefits of
advance united States economic and political interests       development to the poor. The program promotes broad-
overseas.                                                    based, self-sustaining economic growth and supports
                                                             initiatives intended to stabilize population growth,
PROGRAmS                                                     protect the environment and foster increased democratic
                                                             participation in developing countries. The program is
The statements present the financial activity of various     concentrated in those areas in which the united States
programs and accounts managed by uSAId. The programs         has special expertise and which promise the greatest
include the Iraq relief and reconstruction Fund, Economic    opportunity for the poor to better their lives.


                                                                                                                                34
                                                                                                   APPENDIX IV
                                                                                                        8 of 50


Assistance for the New Independent States                       Direct and Guaranteed Loans:
of the Former Soviet Union
                                                                  Direct Loan Program
This account provides funds for a program of assistance
                                                                  These loans are authorized under Foreign Assistance
to the independent states that emerged from the former
                                                                  Acts, various predecessor agency programs, and other
Soviet union. These funds support u.S. foreign policy goals
                                                                  foreign assistance legislation. direct Loans are issued
of consolidating improved u.S. security; building a lasting
                                                                  in both u.S. dollars and the currency of the borrower.
partnership with the New Independent States;and providing
                                                                  Foreign currency loans made “with maintenance of
access to each other’s markets, resources, and expertise.
                                                                  value” place the risk of currency devaluation on the
Special Assistance Initiatives                                    borrower, and are recorded in equivalent u.S. dollars.
                                                                  Loans made “without maintenance of value” place the
This program provides funds to support special assistance         risk of devaluation on the u.S. Government, and are
activities. The majority of funding for this program was          recorded in the foreign currency of the borrower.
for democratic and economic restructuring in Central and
Eastern European countries consistent with the objectives         Urban and Environmental Program
of the Support for East European democracy (SEEd)
                                                                  The urban and Environmental (uE) program, formerly
Act. All SEEd Act programs support one or more of the
                                                                  the Housing Guarantee Program, extends guarantees
following strategic objectives: promoting broad-based
                                                                  to u.S. private investors who make loans to developing
economic growth with an emphasis on privatization, legal
                                                                  countries to assist them in formulating and executing
and regulatory reform and support for the emerging private
                                                                  sound housing and community development policies
sector; encouraging democratic reforms; and improving
                                                                  that meet the needs of lower income groups.
the quality of life including protecting the environment and
providing humanitarian assistance.                                Micro and Small Enterprise Development Program
International Disaster Assistance                                 The micro and Small Enterprise development (mSEd)
                                                                  Program supports private sector activities in developing
Funds for the International disaster Assistance Program
                                                                  countries by providing direct loans and loan guarantees
provide relief, rehabilitation, and reconstruction assistance
                                                                  to support local micro and small enterprises. Although
to foreign countries struck by disasters such as famines,
                                                                  the mSEd program is still active, the bulk of uSAId’s
floods, hurricanes and earthquakes. The program
                                                                  new loan guarantee activity is handled through the
also provides assistance in disaster preparedness, and
                                                                  development Credit Authority (dCA) program.
prevention and mitigation.
                                                                  Israeli Loan guarantee Program
Child Survival and Disease
                                                                  Congress enacted the Israeli Loan Guarantee Program
This program provides economic resources to developing
                                                                  in Section 226 of the Foreign Assistance Act to support
countries to support programs to improve infant and child
                                                                  the costs for immigrants resettling to Israel from the
nutrition,with the aim of reducing infant and child mortality
                                                                  former Soviet union, Ethiopia, and other countries.
rates; to reduce HIV transmission and the impact of the
                                                                  under this program, the u.S. Government guaranteed
HIV/AIdS pandemic in developing countries; to reduce
                                                                  the repayment of up to $10 billion in loans from
the threat of infectious diseases of major public health
                                                                  commercial sources, to be borrowed in $2 billion
importance such as polio, and malaria; and to expand
                                                                  annual increments. borrowing was completed under
access to quality basic education for girls and women.
                                                                  the program during Fiscal Year 1999,with approximately
Transition Initiatives                                            $9.2 billion being guaranteed. Guarantees are made
                                                                  by uSAId on behalf of the u.S. Government, with
This account funds humanitarian programs that provide             funding responsibility and basic administrative functions
post-conflict assistance to victims of natural and man-made       guarantees for Israel, not to exceed $9 billion and
disasters. until FY 2001, this type of assistance was funded      $1.3 billion in guarantees were resting with uSAId.
under the International disaster Assistance account.



                                                                                                               35
                                                                                                              APPENDIX IV
                                                                                                                   9 of 50


   In FY 2003, Congress authorized a second portfolio of        General fund appropriations and the Special fund are
   loan issued under this portfolio during FY 2003.             used to record financial transactions under Congressional
                                                                appropriations or other authorization to spend general
   Ukraine guarantee Program                                    revenue.
   The ukraine Export Credit Insurance Program was              revolving funds are established by law to finance a
   established with the support of the Export-Import bank       continuing cycle of operations, with receipts derived from
   of the u.S. to assist ukrainian importers of American        such operations usually available in their entirety for use
   goods. The program commenced operations in Fiscal            by the fund without further action by Congress.
   Year 1996 and expired in Fiscal Year 1999. The ukraine
   Financing Account was closed out in FY 2002.                 Trust funds are credited with receipts generated by the
                                                                terms of the trust agreement or statute. At the point of
   Development Credit Authority                                 collection, these receipts are unavailable, depending upon
   The first obligations for uSAId’s new development            statutory requirements, or available immediately.
   Credit Authority (dCA) were made in FY 1999. dCA             The capital investment fund contains no year funds to
   allows missions and other offices to use loans and loan      provide the Agency with greater flexibility to manage
   guarantees to achieve their development objectives           investments in technology systems and facility construction
   when it can be shown that: 1) the project generates          that the annual appropriation for Operating Expenses
   enough revenue to cover the debt service including           does not allow.
   uSAId fees, 2) there is at least 50% risk-sharing with
   a private-sector institution, and 3) the dCA guarantee       deposit funds are established for (1) amount received
   addresses a financial market failure in-country and does     for which uSAId is acting as a fiscal agent or custodian,
   not “crowd-out” private sector lending. dCA can be           (2) unidentified remittances, (3) monies withheld
   used in any sector and by any uSAId operating unit           from payments for goods or services received, and (4)
   whose project meets the dCA criteria. dCA projects           monies held waiting distribution on the basis of legal
   are approved by the Agency Credit review board and           determination.
   the Chief Financial Officer.

   Loan guarantees to Egypt Program                             C. BASIS OF ACCOUNTING
The Loan Guarantees to Egypt Program was established            Transactions are recorded on both an accrual and budgetary
under the Emergency Wartime Supplemental Appropria­             basis. under the accrual basis, revenues are recognized
tions Act, 2003. under this program, the u.S. Government        when earned and expenses are recognized when a liability
was authorized to issue an amount not to exceed                 is incurred, without regard to receipt or payment of
$2 billion in loan guarantees to Egypt during the period        cash. budgetary accounting facilitates compliance with
beginning march 1, 2003 and ending September 30, 2005.          legal constraints on, and controls of, the use of federal
$1.25 billion in new loan guarantees were issued in fiscal      funds. The accompanying balance Sheet, Statement of
year 2005 before the expiration of the program.                 Net Cost, and Statement of Changes in Net Position
                                                                have been prepared on an accrual basis. The Statement
FUND TYPES                                                      of budgetary resources has been prepared in accordance
                                                                with budgetary accounting rules. Finally, the Statement
The statements include the accounts of all funds under
                                                                of Financing has been prepared to reconcile budgetary to
uSAId’s control. most of the fund accounts relate to
                                                                financial (proprietary) accounting information.
general fund appropriations. uSAId also has special fund,
revolving fund, trust fund, deposit funds, capital investment
fund, receipt account, and budget clearing accounts.




                                                                                                                              36
                                                                                                 APPENDIX IV
                                                                                                     10 of 50


D. BUDGETS AND BUDGETARY ACCOUNTING                            on rescheduled loans, penalty interest on delinquent
                                                               balances, permanent indefinite borrowing authority from
The components of uSAId’s budgetary resources include          u.S. Treasury, proceeds from the sale of overseas real
current budgetary authority (that is, appropriations and       property acquired by uSAId, and advances from foreign
borrowing authority) and unobligated balances remaining        governments and international organizations.
from multi-year and no-year budget authority received in
                                                               revenues are recognized as financing sources to the extent
prior years. budget authority is the authorization provided
                                                               that they were payable to uSAId from other agencies,
by law to enter into financial obligations that result in
                                                               other governments and the public in exchange for goods
immediate or future outlays of federal funds. budgetary
                                                               and services rendered to others. Imputed revenues are
resources also include reimbursement and other income
                                                               reported in the financial statements to offset the imputed
(that is, spending authority from offsetting collections
                                                               costs.
credited to an appropriation of fund account) and
adjustments (that is, recoveries of prior year obligations).

unobligated balances associated with appropriations that        F. FUND BALANCE wITH U.S. TREASURY
expire at the end of the fiscal year remain available for      Cash receipts and disbursements are processed by the u.S.
obligation adjustments, but not new obligations, until         Treasury. The fund balances with Treasury are primarily
that account is canceled. When accounts are canceled           appropriated funds that are available to pay current
five years after they expire, amounts are not available        liabilities and finance authorized purchase commitments,
for obligations or expenditure for any purpose and are         but they also include revolving, deposit, and trust funds.
returned to Treasury.

Pursuant to Section 511 of uSAId’s Appropriations Act          G. FOREIGN CURRENCY
for certain purposes under the Foreign Assistance Act of
1961,as amended,funds shall remain available for obligation    The direct Loan Program has foreign currency funds,
for an extended period if such funds are initially obligated   which are used to disburse loans in certain countries.
within their initial period of availability.                   Those balances are reported at the u.S. dollar equivalents
                                                               using the exchange rates prescribed by the u.S. Treasury.
                                                               A gain or loss on translation is recognized for the change
E. REvENUES AND OTHER FINANCING                                in valuation of foreign currencies at year-end. Additionally,
SOURCES                                                        some uSAId host countries contribute funds for the
                                                               overhead operation of the host mission and the execution
uSAId receives the majority of its funding through             of uSAId programs. These funds are held in trust and
congressional appropriations -- annual, multi-year, and no-    reported in u.S. dollar equivalents on the balance sheet
year appropriations -- that may be used within statutory       and statement of net costs.
limits. Appropriations are recognized as revenues at the
time the related program or administrative expenses
are incurred. Appropriations expended for capitalized          H. ACCOUNTS RECEIvABLE
property and equipment are not recognized as expenses.
                                                               Accounts receivable consist of amounts due mainly from
In addition to funds warranted directly to uSAId, the
                                                               foreign governments but also from other Federal agencies
agency also receives allocation transfers from the u.S.
                                                               and private organizations. uSAId regards amounts due
department of Agriculture (uSdA) Commodity Credit
                                                               from other Federal agencies as 100 percent collectible. The
Corporation, the Executive Office of the President, and
                                                               Agency establishes an allowance for uncollectible accounts
the department of State.
                                                               receivable for non-loan or revenue generating sources that
Additional financing sources for uSAId’s various credit        have not been collected for a period of over one year.
programs and trust funds include amounts obtained
through collection of guaranty fees, interest income




                                                                                                                37
                                                                                                               APPENDIX IV
                                                                                                                   11 of 50


I. DIRECT LOAN AND LOAN GUARANTEES                             J.ADvANCES AND PREPAYmENTS

Loans are accounted for as receivables after funds have        Funds disbursed in advance of incurred expenditures are
been disbursed. For loans obligated before October 1,          recorded as advances. most advances consist of funds
1991 (the pre-credit reform period),loan principal,interest,   disbursed under letters of credit to contractors and grantees.
and penalties receivable are reduced by an allowance           The advances are liquidated and recorded as expenses upon
for estimated uncollectible amounts. The allowance is          receipt of expenditure reports from the recipients.
estimated based on a net present value method prescribed
by Omb that takes into account country risk and projected
cash flows.                                                    K. INvENTORY AND RELATED PROPERTY

For loans obligated on or after October 1, 1991, the loans     uSAId’s inventory and related property is comprised
receivable are reduced by an allowance equal to the net        of operating materials and supplies. Some operating
present value of the cost to the uSG of making the loan.       materials and supplies are held for use and consist mainly
This cost, known as “subsidy”, takes into account all cash     of computer paper and other expendable office supplies
inflows and outflows associated with the loan,including the    not in the hands of the user. uSAId also has materials and
interest rate differential between the loans and Treasury      supplies in reserve for foreign disaster assistance stored at
borrowing, the estimated delinquencies and defaults net of     strategic sites around the world. These consist of tents,
recoveries, and offsets from fees and other estimated cash     vehicles, and water purification units. The Agency also has
flows. This allowance is re-estimated when necessary and       birth control supplies stored at several sites.
changes reflected in the operating statement.
                                                               uSAId’s office supplies are deemed items held for use
Loans have been made in both u.S. dollars and foreign          because they are tangible personal property to be
currencies. Loans extended in foreign currencies can be        consumed in normal operations. Agency supplies held
with or without “maintenance of Value” (mOV). Those            in reserve for future use are not readily available in the
with mOV place the currency exchange risk upon the             market, or there is more than a remote chance that the
borrowing government; those without mOV place the              supplies will be needed, but not in the normal course of
risk on uSAId. Foreign currency exchange gain or loss          operations. Their valuation is based on cost and they are
is recognized on those loans extended without mOV, and         not considered “held for sale.” uSAId has no supplies
reflected in the net credit programs receivable balance.       categorizable as excess, obsolete, or unserviceable
                                                               operating materials and supplies.
Credit program receivables also include origination
and annual fees on outstanding guarantees, interest on
rescheduled loans and late charges. Claims receivables         L. PROPERTY, PLANT AND EqUIPmENT
(subrogated and rescheduled) are due from foreign
governments as a result of defaults for pre-1992               uSAId capitalizes all property, plant and equipment that
guaranteed loans. receivables are stated net of an             have an acquisition cost of $25,000 or greater and a useful
allowance for uncollectible accounts, determined using an      life of two years or more. Acquisitions that do not meet
Omb approved net present value default methodology.            these criteria are recorded as operating expenses. Assets
                                                               are capitalized at historical cost and depreciated using the
While estimates of uncollectible loans and interest
                                                               straight-line method. real property is depreciated over 20
are made using methods prescribed by Omb, the final
                                                               years,nonexpendable personal property is depreciated over
determination as to whether a loan is collectible is also
                                                               3 to 5 years, and capital leases are depreciated according to
affected by actions of other u.S. Government agencies.
                                                               the terms of the lease. The Agency operates land, buildings,
                                                               and equipment that are provided by the General Services
                                                               Administration. rent for this property is expensed. Internal
                                                               use software that has development costs of $300,000 or
                                                               greater is capitalized. deferred maintenance amounts are
                                                               immaterial with respect to the financial statements.



                                                                                                                                38
                                                                                                   APPENDIX IV
                                                                                                       12 of 50


m. LIABILITIES                                                    O. ANNUAL, SICK,AND OTHER LEAvE

Liabilities represent the amount of monies or other               Annual leave is accrued as it is earned and the accrual
resources that are likely to be paid by uSAId as the result       is reduced as leave is taken. Each year, the balance in
of transactions or events that have already occurred.             the accrued annual leave account is adjusted to reflect
However, no liability can be paid by the Agency without an        current pay rates. To the extent that current or prior
appropriation or borrowing authority. Liabilities for which       year appropriations are not available to fund annual leave
an appropriation has not been enacted are therefore               earned but not taken, funding will be obtained from future
classified as liabilities not covered by budgetary resources      financing sources. Sick leave and other types of leave are
(unfunded liabilities), and there is no certainty that the        expensed as taken.
appropriations will be enacted. Also, these liabilities can be
abrogated by the u.S. Government, acting in its sovereign
capacity.                                                         P. RETIREmENT PLANS AND POST
                                                                  EmPLOYmENT BENEFITS

N. LIABILITIES FOR LOAN GUARANTEES                                uSAId recognizes its share of the cost of providing future
                                                                  pension benefits to eligible employees over the period
The Credit reform Act (CrA) of 1990, which became                 of time the employees provide the related services. The
effective on October 1, 1991, has significantly changed           pension expense recognized in the financial statements
the manner in which uSAId’s loan programs finance                 equals the current service cost for uSAId employees for
their activities. The main purpose of CrA was to more             the accounting period less the amount contributed by the
accurately measure the cost of Federal credit programs            employees. The measurement of the service cost requires
and to place the cost of such programs on a budgetary             the use of an actuarial cost method and assumptions.
basis equivalent to other Federal spending. Consequently,         OPm administers these benefits and provides the factors
commencing in fiscal 1992, uSAId cannot make new loans            that uSAId applies to report the cost. The excess of
or guarantees without an appropriation available to fund          the pension expense over the amount contributed by
the cost of making the loan or guarantee. This cost is            uSAId and employees represents the amount being
known as “subsidy.”                                               financed directly through the Civil Service retirement
For uSAId’s loan guarantee programs, when guarantee               and disability Fund administered by OPm. This cost is
commitments are made, an obligation for subsidy cost is           considered imputed cost to uSAId.
recorded in the program account. This cost is based on            uSAId recognizes a current-period expense for the future
the net present value of the estimated net cash outflows to       cost of post retirement health benefits and life insurance
be paid by the Program as a result of the loan guarantees,        for its employees while they are still working. uSAId
except for administrative costs, less the net present value       accounts for and reports this expense in its financial
of all cash inflows to be generated from those guarantees.        statements in a manner similar to that used for pensions,
When the loans are disbursed,the subsidy cost is disbursed        with the exception that employees and uSAId do not
from the program account to a financing account.                  make contributions to fund these future benefits.
For loan guarantees made before the CrA (pre-1992), the           Federal employee benefit costs paid by OPm and imputed
liability for loan guarantees represents an unfunded liability.   by uSAId are reported on the Statement of Financing and
Footnote 6 presents the unfunded amounts separate from            the Statement of Net Cost.
the post-1991 liabilities. The amount of unfunded liabilities
also represents a future funding requirement for uSAId.
The liability is calculated using a reserve methodology that
is similar to Omb prescribed method for post-1991 loan
guarantees.




                                                                                                                 39
                                                                                                               APPENDIX IV
                                                                                                                   13 of 50


q. COmmITmENTS AND CONTINGENCIES                                  S. NON-ENTITY ASSETS

A contingency is an existing condition, situation or set of       Non-entity fund balances are amounts in deposit Fund
circumstances involving uncertainty as to possible gain or        accounts. These include such items as: funds received from
loss to uSAId.The uncertainty will ultimately be resolved         outside sources where the government acts as fiscal agent,
when one or more future events occur or fail to occur.            monies the government has withheld awaiting distribution
For pending, threatened or potential litigation, a liability is   based on legal determination, and unidentified remittances
recognized when a past transaction or event has occurred,         credited as suspense items outside the budget. For uSAId,
a future outflow or other sacrifice of resources is likely,       non-entity assets are minimal in amount as reflected in
and the related future outflow or sacrifice of resources          Note 3, composed solely of accounts receivables, net of
is measurable. For other litigations, a contingent liability      allowances.
is recognized when similar events occur except that the
future outflow or other sacrifice of resources is more
likely than not. Footnote 15 identifies commitments and
                                                                  T. AGENCY COSTS
contingency liabilities.
                                                                  uSAId costs of operations are comprised of program
                                                                  and operating expenses. uSAId/Washington program
R. NET POSITION
                                                                  expenses by goal are obtained directly from Phoenix, the
                                                                  Agency general ledger. mission related program expenses
Net position is the residual difference between assets and
                                                                  by goal area are obtained from the mission Accounting and
liabilities. It is composed of unexpended appropriations
                                                                  Control system (mACS). A cost allocation model is used
and cumulative results of operations.
                                                                  to distribute operating expenses, including management
   unexpended appropriations are the portion of the               bureau, Global development Alliance, Trust Funds and
   appropriations represented by undelivered orders and           Support Offices costs to specific goals. Expenses related
   unobligated balances.                                          to Credit reform and revolving Funds are directly applied
                                                                  to specific agency goals based on their objectives.
   Cumulative results of operations are also part of net
   position. This account reflects the net difference
   between (1) expenses and losses and (2) financing
   sources, including appropriations, revenues and gains,
   since the inception of the activity.




                                                                                                                               40
                                                                                                       APPENDIX IV
                                                                                                           14 of 50


NOTE 2. FUND BALANCE wITH TREASURY


Fund balance with Treasury as of Septemeber 30, 2006 and                The Fund balance with Treasury are available to pay
2005 consisted of the following:                                        accrued liabilities and finance authorized commitments
                                                                        relative to goods, services, and benefits.
                  Fund Balance with Treasury
                    (Dollars in Thousands)

Fund Balances                             FY 2006          FY 2005

Trust Funds                           $      52,050    $      36,747
revolving Funds                            2,400,715        2,760,473
Appropriated Funds                        16,879,748       14,509,038
Other Funds                                     870          197,585
Total                                 $ 19,333,383     $ 17,503,843


Status of Fund Balance:                   FY 2006          FY 2005

unobligated balance
   Available                          $        5,012   $      11,064
   unavailable                              661,701          911,885
Obligated balance Not Yet disbursed       18,666,670       16,580,894
Total                                 $ 19,333,383     $ 17,503,843




                                                                                                                    41
                                                                                                                          APPENDIX IV
                                                                                                                              15 of 50


NOTE 3. ACCOUNTS RECEIvABLE, NET
The primary components of uSAId’s accounts receivable as of September 30, 2006 and 2005 are as follows:

                                                           Accounts Receivable, Net
                                                            (Dollars in Thousands)

                                                                           Receivable     Allowance       Receivable      Receivable
                                                                             Gross        Accounts         Net 2006        Net 2005
 Entity
    Intragovernmental
          Appropriation reimbursements from Federal Agencies               $      225            N/A      $       225     $       225
          Accounts receivable from Federal Agencies disbursing Authority             –           N/A                 –        330,530
          Less Intra-Agency receivables                                        (84,749)          N/A           (84,749)       (327,437)
              receivable from uSdA                                             84,744            N/A           84,744         819,928
    Total Intragovernmental                                                       220            N/A              220         823,246
          Accounts receivable                                                  92,679          (7,181)         85,498          73,692
    Total Entity                                                               92,899          (7,181)         85,718         896,938
    Total Non-Entity                                                            5,984           (309)           5,675            5,925
 Total Receivables                                                         $   98,883     $    (7,490)    $    91,393     $   902,863


                                   Reconciliation of Uncollectible Amounts (Allowance Accounts)
                                                       (Dollars in Thousands)

                                                                                                           FY 2006         FY 2005
 beginning balance                                                                                         $     7,862    $      7,193
 Additions                                                                                                           –             986
 reductions                                                                                                       (372)           (317)
 Ending balance                                                                                            $     7,490    $      7,862


Entity intragovernmental accounts receivable consist of                    All other entity accounts receivable consist of amounts
amounts due from other u.S. Government agencies. No                        managed by missions or uSAId/Washington. These
allowance has been established for the intragovernmental                   receivables consist of non-program related receivables
accounts receivable,which are considered to be 100 percent                 such as overdue advances, unrecovered advances, audit
collectible. A 100 percent allowance for uncollectable                     findings, and any interest related to these types of
amounts is estimated for accounts receivable due from the                  receivables. A 100 percent allowance for uncollectible
public which are more than one year past due. disbursing                   amounts is estimated for accounts receivable due from the
Authority receivable from uSdA consists of obligational                    public which are more than one year past due. Accounts
authority from the u.S. department of Agriculture’s                        receivable from missions are collected and recorded to
Commodity Credit Corporation. The authority is for                         the respective appropriation.
payment of transportation costs incurred by uSAId
                                                                           Interest receivable is calculated separately and there is no
associated with the shipment of Title II and III commodities;
                                                                           interest included in the accounts receivable listed above.
Farmer-to-Farmer Technical Assistance Programs; and for
assistance to private voluntary organizations,cooperatives,                The account receivable with the public for FY 2006 is
and international organizations. Collections against this                  $91,173 which consists of $85,499 entity and $5,675 non­
receivable are realized when uSAId requests a transfer                     entity. Account receivables with the public for FY 2005
of funds from uSdA to cover incurred expenses.                             was $79,708 which consists of $73,122 entity and $5,925
In FY 2006, uSdA elected to liquidate this receivable.                     non-entity.
At the end of 2005, the outstanding receivable with uSdA
was $820 million.
                                                                                                                                          42
                                                                                                      APPENDIX IV
                                                                                                          16 of 50


NOTE 4. OTHER ASSETS
Advances and Prepayments as of September 30, 2006 and 2005 consisted of the following:

                                                       Advances and Prepayments
                                                         (Dollars in Thousands)

                                                                                                  FY 2006          FY 2005
Intragovernmental
    Advances to Federal Agencies                                                                 $    24,874      $    30,575
Total Intragovernmental                                                                               24,874           30,575
    Advances to Contractors/Grantees                                                                 368,611          678,229
    Travel Advances                                                                                    1,537            1,431
    Advances to Host Country Governments and Institutions                                             24,405           46,732
    Prepayments                                                                                        2,469           11,669
    Advances, Other                                                                                    8,876           11,932
Total with the Public                                                                                405,898          749,993
Total Other Assets                                                                               $   430,772      $   780,568


Advances to Host Country Governments and Institutions               such as educational institutions and voluntary organizations.
represent amounts advanced by uSAId missions to host                Other Advances consist primarily of amounts advanced
country governments and other in-country organizations,             for living quarters and home service.



NOTE 5. CASH AND OTHER mONETARY ASSETS
Cash and Other monetary Assets as of September 30, 2006 and 2005 are as follows:

                                                   Cash and Other monetary Assets
                                                        (Dollars in Thousands)

Cash and Other monetary Assets                                                                    FY 2006          FY 2005
    Imprest Fund-Headquarters                                                                           350                407
    uE and micro and Small Enterprise Fund Cash w/Fiscal Agent                                           50                 50
    Foreign Currencies                                                                               327,198          282,545
Total Cash and Other monetary Assets                                                             $   327,598      $   283,002


uSAId has imprest funds in various overseas locations.              Foreign Currencies are related to Foreign Currency Trust
These funds are provided by the department of State                 Funds and this totaled to $327.2 million in FY 2006 and
overseas u.S. disbursing Officers to which uSAId is                 $282.5 million in FY 2005. uSAId does not have any non­
liable for any shortages. uSAId’s cumulative balance of             entity cash or other monetary assets.
the department of State provided imprest funds was
$1.8 million in FY 2006 and $1.5 million in FY 2005. These
imprest funds are not included in uSAId’s balance Sheet.




                                                                                                                      43
                                                                                                                            APPENDIX IV
                                                                                                                                17 of 50


NOTE 6. DIRECT LOAN AND LOAN GUARANTEES AND LOANS AND
LIABILITIES FOR LOAN GUARANTEES
uSAId operates the following loan and/or loan guarantee                    interest rates, interest supplements, estimated defaults,
programs:                                                                  fees, and other cash flows) associated with direct loans and
                                                                           guarantees, is required by the Act to be recognized as an
   direct Loan Program (direct Loan)                                       expense in the year in which the direct loan or guarantee
   urban and Environmental Program (uE)                                    is disbursed. Subsidy cost is calculated by agency program
                                                                           offices prior to obligation using a model prescribed by the
   micro and Small Enterprise development Program                          Office of management and budget (Omb). Subsidy relating
   (mSEd)                                                                  to existing loans and guarantees is generally required to be
                                                                           reestimated on an annual basis to adjust for changes in risk
   Israel Loan Guarantee Program                                           and interest rate assumptions. direct loans are reported
   development Credit Authority Program (dCA)                              net of an allowance for this subsidy cost (allowance for
                                                                           subsidy).The subsidy costs associated with loan guarantees
   Egypt Loan Guarantee Program                                            are reported as loan guarantee liability.

direct loans resulting from obligations made prior to                      An analysis of loans receivable, loan guarantees, liability for
FY 1992 are reported net of allowance for estimated                        loan guarantees,and the nature and amounts of the subsidy
uncollectible loans. Estimated losses from defaults on loan                costs associated with the loans and loan guarantees are
guarantees resulting from obligations made prior to FY                     provided in the following sections.
1992 are reported as a liability.

The Credit reform Act of 1990 prescribes an alternative                    The following net loan receivable amounts are not the same
method of accounting for direct loans and guarantees                       as the proceeds that uSAId would expect to receive from
resulting from obligations made after FY 1991. Subsidy                     selling its loans. Actual proceeds may be higher or lower
cost, which is the net present value of the cash flows (i.e.               depending on the borrower and the status of the loan.


 Summary of Loans Receivables, Net (Dollars in Thousands)                                                 FY 2006           FY 2005
 Net direct Loans Obligated Prior to FY 1992 (Allowance for Loss method)                                 $ 4,183,220       $ 4,494,975
 Net direct Loans Obligated After FY 1991 (Present Value method)                                             360,132          335,572
 defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method)                             267,263          269,702
 Total Loans receivable, Net as reported on the balance Sheet                                            $ 4,810,615       $ 5,100,249




                                                                                                                                             44
                                                                                         APPENDIX IV
                                                                                             18 of 50


DIRECT LOANS


                                                Direct Loans

                                           (Dollars in Thousands)


                                                                                                  value of Assets
                                                   Loans                        Allowance           Related to
                                                 Receivables      Interest       for Loan          Direct Loans,
Loan Programs                                      Gross         Receivable       Losses               Net
Direct Loans Obligated Prior to FY 1992 (Allowance for Loss method) as of September 30, 2006:
  direct Loans                                    $ 5,288,905    $   382,077    $ 1,487,761        $ 4,183,221
  mSEd                                                    31             36               67                   –
  Total                                           $ 5,288,936    $   382,113    $ 1,487,828        $ 4,183,221


Direct Loans Obligated Prior to FY 1992 (Allowance for Loss method) as of September 30, 2005:
  direct Loans                                    $ 5,867,779    $   316,253    $ 1,688,991        $ 4,495,041
  mSEd                                                   643             96              805                (66)
  Total                                           $ 5,868,422    $   316,349    $ 1,689,796        $ 4,494,975

Direct Loans Obligated After FY 1991 as of September 30, 2006:
  direct Loans                                    $ 1,089,114    $   $16,501    $    745,777       $    359,838
  mSEd                                                   150            133              (10)               293
  Total                                           $ 1,089,264    $   $16,634    $    745,767       $    360,131


Direct Loans Obligated After FY 1991 as of September 30, 2005:
  direct Loans                                    $ 1,043,132    $     9,145    $    716,853       $    335,424
  mSEd                                                   150             24               27                147
  Total                                           $ 1,043,282    $     9,169    $    716,880       $    335,572



                                  Total Amount of Direct Loans Disbursed
                                          (Dollars in Thousands)

Direct Loan Programs                                                                 FY 2006            FY 2005
  direct Loans                                                                      $ 6,378,018        $ 6,910,911
  mSEd                                                                                     181                 793
  Total                                                                             $ 6,378,199        $ 6,911,704




                                                                                                          45
                                                                                                                                        APPENDIX IV
                                                                                                                                            19 of 50




                                            Schedule for Reconciling Subsidy Cost Allowance Balances
                                                            (Post-1991 Direct Loans)
                                                             (Dollars in Thousandss)

                                                                                  FY 2006                                   FY 2005
                                                                  Direct                                    Direct
                                                                  Loan             mSED          Total      Loan              mSED           Total
beginning balance, Changes, and Ending balance
beginning balance of the subsidy cost allowance                   $ 716,853       $       27    $716,880   $237,215          $     27     $237,242
Add: subsidy expense for direct loans disbursed during the
reporting years by component:
     (a) Interest rate differential costs                                –                 –          –              –              –            –
     (b) default costs (net of recoveries)                               –                 –          –              –              –            –
     (c) Fees and other collections                                      –                 –          –              –              –            –
     (d) Other subsidy costs                                             –                 –          –              –              –            –
Total of the above subsidy expense components                            –                 –          –              –              –            –
Adjustments:
     (a) Loan modifications                                       $ 21,688        $        –    $ 21,688   $480,625          $      –     $480,625
     (b) Fees received                                                   –                 –          –              –              –            –
     (c) Foreclosed property acquired                                    –                 –          –              –              –            –
     (d) Loans written off                                               –                 –          –              –              –            –
     (e) Subsidy allowance amortization                               7,236              (37)      7,199         (2,874)            –        (2,874)
     (f) Other                                                           –                 –          –          1,887              –         1,887
Ending balance of the subsidy cost allowance before               $745,777        $      (10)   $745,767   $716,853          $     27     $716,880
reestimates
Add or subtract subsidy reestimates by component:
     (a) Interest rate reestimate                                        –                 –          –              –              –            –
     (b) Technical/default reestimate                                    –                 –          –              –              –            –
Total of the above reestimate components                                 –                 –          –              –              –            –
Ending balance of the subsidy cost allowance                      $ 745,777       $      (10)   $745,767   $716,853          $     27     $716,880




                                                          Defaulted Guaranteed Loans
                                                             (Dollars in Thousands)

                                                     Defaulted                                                                value of Assets
                                                    Guaranteed                                       Allowance             Related to Defaulted
                                                  Loans Receivable,            Interest              For Loan               Guaranteed Loans
Loan Guarantee Programs                                Gross                  Receivable              Losses                 Receivable, Net
Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method): FY 2006
uE                                                    $ 385,728               $       61,980         $ 180,445                   $ 267,263
Total                                                 $ 385,728               $       61,980         $ 180,445                   $ 267,263


Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method): FY 2005
uE                                                    $ 382,264               $       46,915         $ 159,477                   $ 269,702
Total                                                 $ 382,264               $       46,915         $ 159,477                   $ 269,702


                                                                                                                                                       46
                                                                                                APPENDIX IV
                                                                                                    20 of 50


DEFAULTED GUARANTEED LOANS FROm POST-1991 GUARANTEES

In FY 2006, the uE Program experienced $3.2 million in defaults on payments.

In FY 2005, the uE Program experienced $4.2 million in defaults on payments.

GUARANTEED LOANS OUTSTANDING:

                                         Guaranteed Loans Outstanding
                                            (Dollars in Thousands)

                                                                          Outstanding               Amount of
                                                                            Principal,              Outstanding
                                                                        Guaranteed Loans,            Principal
Loan Guarantee Programs                                                    Face value               Guaranteed
Guaranteed Loans Outstanding (FY 2006):
uE                                                                             $ 1,510,359          $ 1,510,359
mSEd                                                                                  17,010                8,505
Israel                                                                             12,869,563           12,869,563
dCA                                                                                  870,636              400,440
Egypt                                                                               1,250,000            1,250,000
Total                                                                          $ 16,517,568         $ 16,039,367


Guaranteed Loans Outstanding (FY 2005):
uE                                                                             $ 1,652,480          $ 1,652,480
mSEd                                                                                  47,427               23,714
Israel                                                                             12,987,372           12,987,372
dCA                                                                                  911,071              405,810
Egypt                                                                               1,250,000            1,250,000
Total                                                                          $ 16,848,350         $ 16,319,376


New Guaranteed Loans Disbursed (FY 2006):
uE                                                                             $           –        $           –
mSEd                                                                                       –                    –
dCA                                                                                  148,025               51,550
Israel                                                                                     –                    –
Egypt                                                                                      –                    –
Total                                                                          $     148,025        $      51,550


New Guaranteed Loans Disbursed (FY 2005):
uE                                                                             $           –        $           –
mSEd                                                                                       –                    –
dCA                                                                                  177,254               88,627
Israel                                                                               750,000              750,000
Egypt                                                                                1,250,00            1,250,000
Total                                                                          $ 2,177,254          $ 2,088,627




                                                                                                             47
                                                                                                                APPENDIX IV
                                                                                                                    21 of 50


                                          Liability for Loan Guarantees
                                             (Dollars in Thousands)

                                                          Liabilities for        Liabilities for
                                                       Losses on Pre-1992      Loan Guarantees               Total
                                                           Guarantees,           for Post-1991             Liabilities
                                                        Estimated Future          Guarantees,              for Loan
           Loan Guarantee Programs                       Default Claims         Present value             Guarantees
Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2006:
uE                                                         $     157,266             $    155,429          $    312,695
mSEd                                                                  –                     (2,152)                (2,152)
Israel                                                                –                  1,169,363             1,169,363
dCA                                                                   –                    10,812                  10,812
Egypt                                                                 –                   170,191               170,191
Total                                                      $     157,266             $ 1,503,643           $ 1,660,909

Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2005:
uE                                                         $     195,344             $    149,557          $    344,901
mSEd                                                                  –                     (1,811)                (1,811)
Israel                                                                –                  1,066,734             1,066,734
dCA                                                                   –                     4,610                   4,610
Egypt                                                                 –                   148,051               148,051
Total                                                      $     195,344             $ 1,367,141           $ 1,562,485



SUBSIDY ExPENSE FOR LOAN GUARANTEES BY PROGRAm AND COmPONENT:

                      Subsidy Expense for Loan Guarantees by Program and Component
                                           (Dollars in Thousands)

                                                                        Fees and
                                  Interest                               Other
 Loan Guarantee Programs        Supplements        Defaults            Collections                Other            Total
Subsidy Expense for New Loan Guarantees (FY 2006):
dCA                               $      –         $     5,336             $   –              $       –        $      5,336
mSEd                                     –                 86                  –                      –                     86
Total                             $      –         $     5,422             $   –              $       –        $      5,422


Subsidy Expense for New Loan Guarantees (FY 2005):
dCA                               $      –         $     4,297             $   –              $       –        $     4,297
mSEd                                     –               1,110                 –                      –              1,110
Total                             $      –         $     5,407             $   –              $       –        $     5,407




                                                                                                                                 48
                                                                                          APPENDIX IV
                                                                                              22 of 50


               Subsidy Expense for Loan Guarantees by Program and Component (continued)
                                         (Dollars in Thousands)

                                                    Total         Interest Rate     Technical          Total
Loan Guarantee Programs                          modifications     Reestimates     Reestimates      Reestimates
modifications and Reestimates (FY 2006):
  uE                                               $        –       $        –      $           –    $           –
  mSEd                                                      –                –                  –                –
  dCA                                                       –                –                  –                –
  Israel                                                    –                –            34,372           34,372
  Egypt                                                     –                –            14,264           14,264
  Total                                            $        –       $        –      $     48,636     $     48,636

modifications and Reestimates (FY 2005):
  uE                                               $        –       $       –       $         532    $        532
  mSEd                                                      –               –                   –                –
  dCA                                                       –               –                 211             211
  Israel                                                    –               –           187,892          187,892
  Egypt                                                     –               –             7,335            7,335
  Total                                            $        –       $       –       $ 195,970        $ 195,970



                                   Total Loan Guarantee Subsidy Expense
                                           (Dollars in Thousands)

Loan Guarantee Programs                                                             FY 2006          FY 2005
  dCA                                                                               $     5,336      $     4,508
  uE                                                                                            –             532
  mSEd                                                                                         86          1,110
  Israel                                                                                 34,372          187,892
  Egypt                                                                                  14,264            7,335
  Total                                                                             $    54,058      $ 201,377




SUBSIDY RATES FOR LOAN GUARANTEES BY PROGRAm AND COmPONENT:

                  Budget Subsidy Rates for Loan Guarantees for the Current Year’s Cohorts
                                                 (Percent)

                                  Interest                         Fees and
                                Supplements                          Other
Loan Guarantee Programs             (%)         Defaults (%)     Collections (%)    Other (%)        Total (%)
  dCA                                 –             4.07%               –                 –              4.07%




                                                                                                         49
                                                                                                                                             APPENDIX IV
                                                                                                                                                 23 of 50


                                      Schedule for Reconciling Loan Guarantee Liability Balances
                                                       (Dollars in Thousands)

            (Post-1991 Loan Guarantees)                                 DCA           mSED            UE            Israel         Egypt          Total
                                                                        FY 2006
beginning balance, Changes, and Ending balance
beginning balance of the loan guarantee liability                   $    4,610    $    (1,811)   $ 149,557      $1,066,734     $ 148,051      $1,367,141
Add: subsidy expense for guaranteed loans disbursed during the
    reporting years by component:
    (a) Interest supplement costs                                            –             –               –              –             –                –
    (b) default costs (net of recoveries)                                    –             –               –              –             –                –
    (c) Fees and other collections                                           –             –               –              –             –                –
    (d) Other subsidy costs                                              5,336            86               –              –             –            5,422
Total of the above subsidy expense components                       $    5,336    $       86     $         –    $         –    $        –     $      5,422
Adjustments:
    (a) Loan guarantee modifications                                        –              –              –               –             –               –
    (b) Fees received                                                     847             55          2,334               –             –           3,236
    (c) Interest supplements paid                                           –              –              –               –             –               –
    (d) Foreclosed property and loans acquired                              –              –              –               –             –               –
    (e) Claim payments to lenders                                        (168)          (475)        (3,254)                                       (3,897)
    (f) Interest accumulation on the liability balance                    879              –          8,784          48,272          6,625         64,560
    (g) Other                                                            (692)            (7)        18,604               –              –         17,905
Ending balance of the loan guarantee liability before reestimates   $ 10,812      $ (2,152)      $ 176,025      $1,115,006     $ 154,676      $1,454,367
Add or subtract subsidy reestimates by component:
   (a) Interest rate reestimate                                               –            –               –              –              –              –
   (b) Technical/default reestimate                                           –            –         (20,597)        54,358         15,515         49,276
Total of the above reestimate components                            $      –      $         –    $ (20,597)     $ 54,358       $ 15,515       $ 49,276
Ending balance of the loan guarantee liability                      $ 10,812      $    (2,152)   $ 155,428      $1,169,364     $ 170,191      $1,503,643


                                                                        FY 2005
beginning balance, Changes, and Ending balance
beginning balance of the loan guarantee liability                   $ ( 2,975)    $    (3,902)   $ 103,787      $ 700,856      $        –     $ 797,766
Add: subsidy expense for guaranteed loans disbursed during the
    reporting years by component:
    (a) Interest supplement costs                                            –             –               –              –             –               –
    (b) default costs (net of recoveries)                                    –             –               –              –             –               –
    (c) Fees and other collections                                           –             –               –              –             –               –
    (d) Other subsidy costs                                              4,298         1,110               –              –             –           5,408
Total of the above subsidy expense components                       $    4,298    $    1,110     $         –    $         –    $        –     $     5,408
Adjustments:
    (a) Loan guarantee modifications                                         –             –              –               –              –              –
    (b) Fees received                                                    1,443           209          2,591          29,250        137,250        170,743
    (c) Interest supplements paid                                            –             –              –               –              –              –
    (d) Foreclosed property and loans acquired                               –             –              –               –              –              –
    (e) Claim payments to lenders                                         (310)         (586)        (4,167)              –              –         (5,063)
    (f) Interest accumulation on the liability balance                       –             –          8,279          47,110          3,109         58,498
    (g) Other                                                            3,736         4,784         48,555         (14,153)             –         42,922
Ending balance of the loan guarantee liability before reestimates   $    6,192    $    1,615     $ 159,045      $ 763,063      $ 140,359      $1,070,274
Add or subtract subsidy reestimates by component:




                                                                                                                                                             50
                                                                                                                    APPENDIX IV
                                                                                                                        24 of 50


                                        Schedule for Reconciling Loan Guarantee Liability Balances
                                                         (Dollars in Thousands)

             (Post-1991 Loan Guarantees)                         DCA            mSED          UE          Israel          Egypt          Total
     (a) Interest rate reestimate                                      –              –            –            –              –               –
     (b) Technical/default reestimate                            ( 1,582)        (3,426)      (9,488)     303,671          7,692         296,867
 Total of the above reestimate components                    $   (1,582)    $    (3,426)   $ (9,488)    $ 303,671    $ 7,692           $ 296,867
 Ending balance of the loan guarantee liability              $    4,610     $    (1,811)   $ 149,557    $1,066,734   $ 148,051         $1,367,141


                                                         Administrative Expense
                                                         (Dollars in Thousands)

 Loan Programs                                                                                               FY 2006               FY 2005
     dCA                                                                                                    $   13,215             $    9,615
     uE                                                                                                               –                     217
     mSEd                                                                                                             –                       2
     Total                                                                                                  $   13,215             $    9,834

OTHER INFORmATION

1. Allowance for Loss for Liquidating account (pre-Credit reform Act) receivables have been calculated in accordance
   with Omb guidance using a present value method which assigns risk ratings to receivables based upon the country of
   debtor. Seventeen countries are in violation of Section 620q of the Foreign Assistance Act (FAA), owing $65.1 million
   that is more than six months delinquent. Sixteen countries are in violation of the brooke-Alexander Amendment
   to the Foreign Operations Export Financing and related Programs Appropriations Act, owing $553.7 million that is
   more than one year delinquent. Outstanding direct loans receivable for countries in violation of Section 620q totaled
   $55.1 million. Outstanding direct loans receivable for countries in violation of the brooke Amendment totaled $514.6
   million.

2. The mSEd Liquidating Account general ledger has a loan receivable balance of $31 thousand. This includes a loan
   pending closure.This loan is being carried at 100% bad debt allowance.



NOTE 7. INvENTORY AND RELATED PROPERTY, NET
uSAId’s Inventory and related Property is comprised of Operating materials and Supplies. Operating materials and
Supplies as of September 30, 2006 and 2005 are as follows:

                                                     Inventory and Related Property
                                                         (Dollars in Thousands)

                                                                                                             FY 2006               FY 2005
 Items Held for Use
     Office Supplies                                                                                        $   14,895             $   13,319
 Items Held in Reserve for Future Use
     disaster assistance materials and supplies                                                                 16,074                  9,096
     birth control supplies                                                                                     22,376                 21,707
 Total                                                                                                      $   53,345             $   44,122

Operating materials and Supplies are valued at cost and considered not held for sale.


                                                                                                                                       51
                                                                                                                 APPENDIX IV
                                                                                                                     25 of 50


NOTE 8. GENERAL PROPERTY, PLANT AND EqUIPmENT, NET

                                            General Property, Plant and Equipment, Net
                                                      (Dollars in Thousands)

                                                                                                 Accumulated     Net Book
                                                                   Useful Life         Cost      Depreciation     value
The components of PP&E as of September 30, 2006 are as follows:
Classes of Fixed Assets
   Equipment                                                        3 to 5 years   $    87,242   $   (49,967)    $    37,276
   buildings, Improvements, & renovations                            20 years           74,017       (31,194)         42,823
   Land and Land rights                                                N/A               3,139         N/A             3,139
   Assets under Capital Lease                                                            6,899        (2,160)          4,739
   Construction in Progress                                            N/A                570                –          570
   Internal use Software                                            3 to 5 years        35,937       (20,489)         15,448
Total                                                                              $   207,804   $ (103,810)     $   103,994


The components of PP&E as of September 30, 2005 are as follows:
Classes of Fixed Assets
   Equipment                                                        3 to 5 years   $    76,099   $   (38,729)    $    37,370
   buildings, Improvements, & renovations                            20 years           59,221       (26,789)         32,432
   Land and Land rights                                                N/A               4,181         N/A             4,181
   Assets under Capital Lease                                                            6,365        (1,864)          4,501
   Construction in Progress                                            N/A                570                –          570
   Internal use Software                                            3 to 5 years        29,961       (12,843)         17,118
Total                                                                              $   176,397   $   (80,225)    $    96,172



The threshold for capitalizing or amortizing assets is            Structures and Facilities include uSAId owned office
$25,000.Assets purchased prior to FY 2003 are depreciated         buildings and residences at foreign missions, including the
using the straight line depreciation method. Assets               land on which these structures reside. These structures
purchased during FY 2003 and beyond are depreciated               are used and maintained by the field missions. uSAId
using the mid-quarter convention depreciation method.             does not separately report the cost of the building and
depreciable assets are assumed to have no remaining               the land on which the building resides.
salvage value. There are currently no restrictions on PPE
                                                                  Land consists of property owned by uSAId in foreign
assets.
                                                                  countries. usually the land is purchased with the intention
uSAId PP&E includes assets located in Washington, d.C.            of constructing an office building at the site.
offices and overseas field missions.

Equipment consists primarily of electric generators, AdP
hardware, vehicles and copiers located at the overseas
field missions.




                                                                                                                                52
                                                                                                         APPENDIX IV
                                                                                                             26 of 50


NOTE 9. LEASES
As of September 30, 2006 and 2005 Leases consisted of the following:

                                                                      Leases
                                                              (Dollars in Thousands)

Entity as Lessee
   Capital Leases:                                                                                  FY 2006           FY 2005
   Summary of Assets under Capital Lease:
      buildings                                                                                 $       6,899     $       6,365
      Accumulated depreciation                                                                  $      (2,160)    $      (1,864)
   Net Assest under Capital Leases                                                              $       4,739     $       4,501
   Future Payments Due:
   Fiscal Year                                                                                 Future Costs      Future Costs
      2006                                                                                      $       –         $     195
      2007                                                                                            285               165
      2008                                                                                            195                45
      2009                                                                                            117                45
      2010                                                                                            117                45
      2011                                                                                             45               158
      After 5 Years                                                                                   237                 –
   Net Capital Lease Liability                                                                  $        996      $         653

   Lease Liabilities Covered by budgetary resources                                             $        996      $         653
   Lease Liabilities Not Covered by budgetary resources                                         $          –      $           –
   The capital lease liability is reported on uSAId’s balance Sheet under Other Liabilities.

   Operating Leases:                                                                                FY 2006           FY 2005
   Future Payments Due:
   Fiscal Year                                                                                 Future Costs      Future Costs
      2006                                                                                      $        –        $   77,861
      2007                                                                                          34,510            76,467
      2008                                                                                          37,271            75,332
      2009                                                                                          40,253            74,094
      2010                                                                                          43,473            72,219
      2011                                                                                          46,951            19,515
      After 5 Years                                                                                105,470                 –
   Total Future Lease Payments                                                                  $    307,928      $    395,489


Of the $308.8 million in future lease payment, $308 million is attributable to the ronald reagan building. The occupancy
agreement for the ronald reagan building in Washington d.C will expire September 30, 2010. This building is leased by
the General Services Administration (GSA). uSAId is charged rent intended to approximate commercial rental rates.
Lease payments for FY 2006 amounted to $40.5 million.




                                                                                                                       53
                                                                                                                    APPENDIX IV
                                                                                                                        27 of 50


NOTE 10. ACCOUNTS PAYABLE
The Accounts Payable covered by budgetary resources as of September 30, 2006 and 2005 consisted of the following:

                                  Accounts Payable Covered by Budgetary Resources
                                               (Dollars in Thousands)

                                                                                      FY 2006                   FY 2005
 Intragovernmental
     Accounts Payable                                                             $       62,052            $       24,226
     disbursements in Transit                                                                24                         6
 Total Intragovernmental                                                                  62,076                    24,232
     Accounts Payable                                                                 2,247,006                 3,164,071
     disbursements in Transit                                                             20,715                    16,521
 Total with the Public                                                                2,267,721                 3,180,592
 Total Accounts Payable                                                           $ 2,329,797               $ 3,204,824

Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly of unliquidated
obligation balances related to interagency agreements between uSAId and other federal agencies.

All other Accounts Payable represent liabilities to other non-federal entities.


NOTE 11. DEBT
uSAId Intragovernmental debt as of September 30, 2006 and 2005 consisted of the following borrowings from Treasury
for post-1991 loan programs, which is classified as other debt:

                                                Intragovernmental Debt
                                                 (Dollars in Thousands)

                                             FY 2005                          FY 2005                               FY 2006
                                            Beginning           Net           Ending               Net              Ending
                                             Balance         Borrowing        Balance           Borrowing           Balance
 urban & Environmental                  $          –     $          –     $           –     $          –        $            –
 direct Loan                                  111,081          311,521         422,602             51,453            474,055
 mSEd                                              –                –                 –                –                     –
 Total debt                             $     111,081    $     311,521    $    422,602      $      51,453       $    474,055

Pursuant to the Credit reform Act of 1990, agencies with credit programs have permanent indefinite authority to borrow
funds from the Treasury. These funds are used to disburse new direct loans to the public and, in certain situations, to
cover credit reform program costs. Liquidating (pre-1992) accounts have permanent indefinite borrowing authority to
be used to cover program costs when they exceed account resources. urban and Environmental (uE) Program debt
includes amounts borrowed before the effective date of the Credit reform Act of 1990.

The above disclosed debt is principal payable to Treasury, which represents financing account borrowings from the
Treasury under the Credit reform Act. In addition, there is net liquidating account equity in the amount of $4.5 billion,
which under the Credit reform Act is required to be recorded as due to Treasury. both of these accounts are used
exclusively for credit reform activity. All debt shown is intragovernmental debt.




                                                                                                                                 54
                                                                                                  APPENDIX IV
                                                                                                      28 of 50


NOTE 12. OTHER LIABILITIES
As of September 30, 2006 and 2005 Other Liabilities consisted of the following:

                                                              Other Liabilities
                                                            (Dollars in Thousands)

                                                                                            FY 2006           FY 2005
 Intragovernmental
     OPAC Suspense                                                                      $            –    $              –
     unfunded FECA Liability                                                                      8,500             7,429
     deposit and Clearing Accounts                                                                 847                   –
     Credit Program undisbursed Loans                                                                –                   –
     Other                                                                                       33,304            23,081
 Total Intragovernmental                                                                $        42,651   $        30,510
     Accrued Funded Payroll and Leave                                                             9,207            13,964
     unfunded Leave                                                                              34,405            33,324
     Other unfunded Employment related Liability                                                     –                   –
     Advances From Others                                                                          595                   7
     deferred Credits                                                                             7,120            11,557
     Liability for deposit Funds and Suspense Accounts – Non-Entity                                  –             18,072
     Foreign Currency Trust Fund                                                                327,371           282,545
     Capital Lease Liability                                                                       996                  50
     Custodial Liability                                                                          3,741                781
     Other Liabilities                                                                           45,353            30,035
     Other                                                                                           –                   –
 Total Liabilities With the Public                                                      $       428,788   $       390,335

 Total Other Liabilities                                                                $       471,439   $       420,845

All liabilities are current. Intragovernmental Liabilities represent amounts due to other federal agencies. All remaining
Other Liabilities are liabilities to non-federal entities.


NOTE 13. ACCRUED UNFUNDED ANNUAL LEAvE AND SEPARATION PAY
Accrued unfunded benefits for annual leave and separation pay as of September 30, 2006 and 2005 are:

                                                          Accrued Unfunded Benefits
                                                            (Dollars in Thousands)

                                                                                            FY 2006           FY 2005
 Liabilities Not Covered by Budgetary Resources
     Accrued Annual Leave                                                                   $    33,304       $    32,076
     FSN Separation Pay Liability                                                                 1,101             1,248
 Total Accrued unfunded Annual Leave and Separation Pay                                     $    34,405       $    33,324




                                                                                                                  55
                                                                                                              APPENDIX IV
                                                                                                                  29 of 50


NOTE 14. FEDERAL EmPLOYEES ANDvETERAN’S BENEFITS
The provision for workers’ compensation benefits payable, as of September 30, 2006 and 2005 are as indicated below.
These liabilities are included in the Intragovernmental Other Liabilities Line Item on the balance sheet and are not
covered by bugetary resources.

                                       Accrued Unfunded workers’ Compensation Benefits
                                                    (Dollars in Thousands)

                                                                                             FY 2006          FY 2005
 Liabilities Not Covered by Budgetary Resources
    Future Workers’ Compensation benefits                                                    $   23,438       $   23,726
    Accrued Funded Payroll and Leave                                                             9,207            13,964
    unfunded Leave                                                                                   –                –
    Total Accrued unfunded Workers’ Compensation benefits                                    $   32,645       $   37,690


The Federal Employees Compensation Act (FECA)                   For FY 2005,uSAId’s total FECA liability was $37.7 million
program is administered by the u.S. department of               and comprised of unpaid FECA billings for $14 million and
Labor (dOL) and provides income and medical cost                estimated future FECA costs of $23.7 million.
protection to covered Federal civilian employees who
                                                                The actuarial estimate for the FECA unfunded liability is
have been injured on the job or have incurred a work-
                                                                determined by the department of Labor using a method
related occupational disease. Compensation is given to
                                                                that utilizes historical benefit payment patterns. The
beneficiaries of employees whose death is attributable to
                                                                projected annual benefit payments are discounted to
a job-related injury or occupational disease. dOL initially
                                                                present value using economic assumption for 10-year
pays valid FECA claims for all Federal government agencies
                                                                Treasury notes and bonds and the amount is further
and seeks reimbursement two fiscal years later from the
                                                                adjusted for inflation. Currently, the projected number of
Federal agencies employing the claimants.
                                                                years of benefit payments is 37 years.
For FY 2006,uSAId’s total FECA liability was $32.6 million
and comprised of unpaid FECA billings for $9.2 million
and estimated future FECA costs of $23.4 million.


NOTE 15. COmmITmENTS AND CONTINGENCIES 

uSAId is involved in certain claims and suits,and complaints       death and dismemberment and business Travel Insurance
that have been filed or are pending.These matters are in           for contractor employees related to initial deployment
the ordinary course of the Agency’s operations and are             to Iraq. The estimated loss is up to $750,000.
not expected to have a material adverse effect on the
Agency’s financial operations.                                     The third case is a contract claim over the payment of
                                                                   taxes on a building leased by uSAId as mission offices.
As of September 30, 2006 a total of nine cases were                The estimated loss is up to $800,000.
pending.
                                                                The statuses of the remaining six litigation cases are at a
Three cases have been designated as reasonably possible:        remote designation.

   The first case is a contract claim arising out of SSA’s      In 2006, a case disclosed in 2005 was settled for
   contract to repair and operate an Iraqi port. The            $1,000,000.
   estimated loss is up to $800,000.
                                                                A case was deemed as highly probable for a lease
   The second case is an appeal of the Contracting Officer’s    termination penalty of $3,000,000. This was disclosed in
   disallowance of the costs of supplemental Accidental         2006 financial statements.


                                                                                                                              56
                                                                                                       APPENDIX IV
                                                                                                           30 of 50


NOTE 16. LIABILITIES NOT COvERED BY BUDGETARY RESOURCES
Liabilities not covered by budgetary resources as of September 30, 2006 and 2005 are as follows:

                                            Liabilities Not Covered by Budgetary Resources
                                                          (Dollars in Thousands)

                                                                                                 FY 2006         FY 2005
 Intragovernmental
     Accounts Payable                                                                           $     62,076     $   351,663
     debt                                                                                            474,055         422,602
     Other                                                                                            42,651          30,510
 Total Intragovernmental                                                                             578,782         804,775
 With The Public
     Accrued unfunded annual leave and separation pay                                                 34,405          33,324
     Accrued unfunded Workers Compensation benefits                                                   32,645          37,691
     debt - Contingent Liabilities for Loan Guarantees                                               160,266         195,344
 Total Liabilities not covered by budgetary resources                                                227,316         266,359
 Total Liabilities covered by budgetary resources                                                   9,308,148    10,202,446
     Less Intra-Agency Liabilities                                                                    (84,749)       (327,437)
 Total Liabilities                                                                              $ 9,450,715      $10,946,143




NOTE 17. INTRAGOvERNmENTAL COSTS AND ExCHANGE REvENUE 

The Consolidated Statement of Net Cost reports the                  Also, the format of the Consolidated Statement of Net
Agency’s gross costs less earned revenues to arrive at net          Cost is new for FY 2006 and is consistent with Omb
cost of operations by strategic goals, as of September 30,          Circular A-136 guidance.
2006. These goals are consistent with uSAId’s Strategic
                                                                    Note 17 shows the value of exchange transactions
Planning Framework.
                                                                    between uSAId and other Federal entities as well as non-
In fourth quarter FY 2006,as part of the annual certification       Federal entities. These are also categorized by strategic
process for mapping strategic objectives to performance             goals and responsibility segments. responsibility Segments
goals, strategic objectives assigned to performance goals           are defined in Note 18.
under Homeland Security strategic goal were reassigned
                                                                    Intragovernmental costs and exchange revenue sources
to performance goals under the regional Stability strategic
                                                                    relate to transactions between uSAId and other Federal
goal.Thus the Homeland Security goal is not effective for
                                                                    entities. Public costs and exchange revenues on the other
FY 2006 cost reporting.
                                                                    hand relate to transactions between uSAId and non-
                                                                    Federal entities.




                                                                                                                     57
                                                                                                                                    APPENDIX IV
                                                                                                                                        31 of 50


                                   U.S.Agency for International Development

                INTRAGOvERNmENTAL COSTS AND ExCHANGE REvENUE BY RESPONSIBILITY SEGmENT

                                For the Years Ended September 30, 2006 and 2005

                                              (Dollars in Thousands)


                                                                                                                   Latin
                                                     Asia &                               Europe                  America      Intra-
                                                     Near                                   &           Global       &        Agency           2006              2005
Goal                                     Africa       East        DCHA        EGAT        Eurasia       Health   Caribbean Eliminations        Total             Total
Regional Stability
  Intragovernmental Costs            $     1,377 $      6,131 $      8,408 $     4,143 $      4,311 $        – $      3,796      (175)    $      27,991 $         29,095
  Public Costs                            23,128      297,141      202,663      1,956        96,427          –       21,404         –           642,719           755,496
     Total Program Costs                  24,505      303,272      211,071      6,099       100,738          –       25,200      (175)          670,710           784,590
  Intragovernmental Earned revenue           (71)        (314)        (337)        (22)        (210)         –          (63)       25              (992)             (507)
  Public Earned revenue                       10           44           38           3           29          –            9         –               133              (115)
     Total Earned revenue                    (61)        (270)        (299)        (19)        (181)         –          (54)       25              (859)             (622)
Net Program Costs                        24,444      303,002      210,772       6,080      100,557           –      25,146      (150)          669,851           783,968

Counterterrorism
  Intragovernmental Costs                     87       20,805           –            –           –           –           –       (131)           20,761             8,631
  Public Costs                             1,230      618,980           –            –           –           –           –          –           620,210           879,234
     Total Program Costs                   1,317      639,785           –            –           –           –           –       (131)          640,971           887,866
  Intragovernmental Earned revenue            (5)        (580)          –            –           –           –           –         15              (570)             (336)
  Public Earned revenue                        1           80           –            –           –           –           –          –                81               (76)
     Total Earned revenue                     (4)        (500)          –            –           –           –           –         15              (489)             (412)
Net Program Costs                         1,313      639,285            –            –           –           –           –      (116)          640,482           887,453

International Crime and Drugs
   Intragovernmental Costs                 –                –         864            –         294           –        4,542      (35)             5,665            39,280
   Public Costs                            –                –       5,020            –       4,497           –       85,414        –             94,931           178,417
      Total Program Costs                  –                –       5,884            –       4,791           –       89,956      (35)           100,596           217,697
   Intragovernmental Earned revenue        –                –          (10)          –          (15)         –         (244)       7               (262)             (313)
   Public Earned revenue                   –                –            1           –            2          –           30        –                 33               (71)
      Total Earned revenue                 –                –           (9)          –          (13)         –         (214)       7               (229)             (384)
Net Program Costs                          –                –       5,875            –       4,778           –      89,742       (28)          100,367           217,312
Democracy and Human Rights
   Intragovernmental Costs            14,660            6,565        1,516           –      18,541           –        8,242      (308)           49,216            58,426
   Public Costs                       92,322          414,327       19,230           –      291,605          –      150,680         –            968,164      1,138,546
      Total Program Costs            106,982          420,892       20,746           –      310,146          –      158,922      (308)         1,017,380      1,196,972
   Intragovernmental Earned revenue   (1,021)            (318)      (1,460)          –         (858)         –         (389)      101             (3,945)        (4,516)
   Public Earned revenue                  42               44            4           –          119          –           54         –                263           (491)
      Total Earned revenue              (979)            (274)      (1,456)          –         (739)         –         (335)      101             (3,682)        (5,007)
Net Program Costs                   106,003          420,618       19,290            –     309,407           –     158,587      (207)         1,013,698      1,191,966

Economic Prosperity and Security
  Intragovernmental Costs            51,233    63,612                  976     (26,004)      43,039          –       24,789      (980)           156,665        126,206
  Public Costs                      273,096 1,620,042              867,780     124,813      300,069          –      186,016         –          3,371,816      3,816,120
     Total Program Costs            324,329 1,683,654              868,756      98,809      343,108          –      210,805      (980)         3,528,481      3,942,326
  Intragovernmental Earned revenue   (1,068)   (2,235)                  (2)     (7,275)        (869)         –         (461)      297            (11,613)        (4,500)
  Public Earned revenue                 124       196                    –      (1,309)         120          –          (70)        –               (939)        (3,023)
     Total Earned revenue              (944)   (2,039)                  (2)     (8,584)        (749)         –         (531)      297            (12,552)        (7,523)
Net Program Costs                  323,385 1,681,615              868,754      90,225      342,359           –     210,274      (683)         3,515,929      3,934,803
                                                                                                                                                 (continued on next page)




                                                                                                                                                            58
                                                                                                                                                       APPENDIX IV
                                                                                                                                                           32 of 50
                                  U.S.Agency for International Development
           INTRAGOvERNmENTAL COSTS AND ExCHANGE REvENUE BY RESPONSIBILITY SEGmENT (continued)
                               For the Years Ended September 30, 2006 and 2005
                                             (Dollars in Thousands)

                                                                                                                             Latin
                                                         Asia &                                 Europe                      America      Intra-
                                                         Near                                     &            Global          &        Agency                  2006           2005
 Goal                                       Africa        East         DCHA         EGAT        Eurasia        Health      Caribbean Eliminations               Total          Total

 Social and Environmental Issues
   Intragovernmental Costs              87,448    32,642                      11      19,254       17,000        57,682        25,727            (1,491)         238,273        189,105
   Public Costs                      1,000,862 1,225,052                    272      197,380      170,288       699,205       249,970                 –        3,543,029      4,108,261
      Total Program Costs            1,088,310 1,257,694                    283      216,634      187,288       756,887       275,697            (1,491)       3,781,302      4,297,366
   Intragovernmental Earned revenue     (3,048)   (1,107)                    (1)     (67,834)        (535)      (57,777)         (713)            3,262         (127,753)       (57,065)
   Public Earned revenue                   423       154                       –     (57,976)          70            96            99                 –          (57,134)        (9,461)
      Total Earned revenue              (2,625)     (953)                    (1)    (125,810)        (465)      (57,681)         (614)            3,262         (184,887)       (66,526)
 Net Program Costs                  1,085,685 1,256,741                     282      90,824      186,823       699,206       275,083             1,771        3,596,415      4,230,839

 Humanitarian Response
   Intragovernmental Costs                     3,646         4,342       81,063             –        1,226             –        5,328              (594)          95,011          59,672
   Public Costs                               36,654        98,095      473,538             –       17,025             –       82,649                 –          707,961       1,128,782
      Total Program Costs                     40,300       102,437      554,601             –       18,251             –       87,977              (594)         802,972       1,188,454
   Intragovernmental Earned revenue             (134)          (73)        (667)            –          (60)            –         (259)               30           (1,163)        (64,329)
   Public Earned revenue                          19            10           92             –            8             –           36                 –              165        (129,491)
      Total Earned revenue                      (115)          (63)        (575)            –          (52)            –         (223)               30             (998)       (193,820)
 Net Program Costs                           40,185       102,374      554,026              –      18,199              –      87,754              (564)         801,974         994,634

 management and Organizational Excellence
   Intragovernmental Costs               1,647         –          –      2,454        –         –         –                                        (25)            4,076       5,709
   Public Costs                            349         –          –     10,640        –         –         –                                          –            10,989       8,978
      Total Program Costs                1,996         –          –     13,094        –         –         –                                        (25)           15,065      14,686
   Intragovernmental Earned revenue         (9)        –          –        (59)       –         –         –                                          2               (66)        (30)
   Public Earned revenue                     1         –          –          8        –         –         –                                          –                 9          (7)
      Total Earned revenue                  (8)        –          –        (51)       –         –         –                                          2               (57)        (37)
 Net Program Costs                      1,988          –          –    13,043         –         –         –                                        (23)          15,008      14,649
 Net Costs of Operations            $1,583,003 $4,403,635 $1,658,999 $200,172 $ 962,123 $ 699,206 $ 846,586                               $          –      $10,353,724 $12,255,626

Note:The Total Earned Revenue by strategic goals on Notes 17 and 18 are slightly off from the Consolidated and Consolidating Statement of Net Cost. Some public earned revenue could not
be mapped to a specific goal. Since the amount was immaterial, it was allocated amongst the goals with the largest amounts of public earned revenue i.e., Economic Prosperity and Security,
Social and Environmental Issues and Humanitarian Response. Pre-allocatoin, these goals collectively made up approximately 99% of the Total Public Earned revenue.




                                                                                                                                                                            59
                                                                                                                                             APPENDIX IV
                                                                                                                                                 33 of 50
NOTE 18. SCHEDULE OF COST BY RESPONSIBILITY SEGmENTS
The Schedule of Costs by responsibility Segment categorizes costs and revenues by strategic and performance goals
and responsibility segment.

A responsibility segment is the component that carries out a mission or major line of activity, and whose managers
report directly to top management. The geographic and technical bureaus of uSAId (below) meet the criteria of a
responsibility segment.These bureaus directly support the Agency goals while the remaining bureaus and offices support
the operations of these bureaus. To report the full cost of program outputs, the cost of support bureaus and offices
are allocated to the outputs of the geographic and technical bureaus. Intra-agency eliminations are allocated to goals to
reflect total goals costs.

                         FY 2006 STATEmENT OF NET COST RESPONSIBILITY SEGmENTS
 Geographic Bureaus                                                       Technical Bureaus
    Africa (AFr)                                                              democary, Conflict, and Humanitarian Assistance (dCHA)
    Asia and Near East (ANE)                                                  Economic Growth,Agriculture, and Trade (EGAT)
    Latin America and the Caribbean (LAC)                                     Global Health (GH)
    Europe and Eurasia (E&E)


                                            U.S.Agency for International Development

                                       SCHEDULE OF COSTS BY RESPONSIBILITY SEGmENT

                                             For the Year Ended September 30, 2006

                                                      (Dollars in Thousands)


                                                                                                                        Latin       Intra-
                                                    Asia &                                Europe &       Global       America &    Agency    Consolidated
Goal                                    Africa     Near East    DCHA       EGAT            Eurasia       Health       Caribbean Eliminations    Total
Regional Stability
   Close, strong, and effective u.S. ties with allies
       Gross Costs                 $       7,324 $ 283,439 $      43,554 $   6,099 $          23,265 $            – $    19,582 $     (104) $      383,159
       Less: Earned revenues                  (19)       (256)        (45)     (19)              (66)             –         (40)        13            (432)
       Net Program Costs                   7,305      283,183     43,509     6,080            23,199              –      19,542        (91)        382,727
   Existing and emergent regional conflicts are contained or resolved
       Gross Costs                        17,181       19,833    167,517         –            77,473              –       5,618        (71)        287,551
       Less: Earned revenues                  (42)        (15)      (253)        –              (115)             –         (14)        12            (427)
       Net Program Costs                  17,139       19,818    167,264         –            77,358              –       5,604        (59)        287,124

Counterterrorism
  Stable political and economic conditions
      Gross Costs                       1,317         639,785             –           –            –              –           –       (131)        640,971
      Less: Earned revenues                (4)           (500)            –           –            –              –           –         15            (489)
      Net Program Costs                 1,313         639,285             –           –            –              –           –       (116)        640,482

International Crime and Drugs
   International trafficking in drugs, persons, and other illicit goods
       Gross Costs                             –             –            –           –        4,790              –      89,956        (30)         94,716
       Less: Earned revenues                   –             –            –           –          (13)             –        (214)         7            (220)
       Net Program Costs                       –             –            –           –        4,777              –      89,742        (23)         94,496
    States cooperate internationally to set and implement anti-drug and anti-crime standards, share financial and political burdens
        Gross Costs                           –          –          5,885            –            –             –              –        (5)          5,880
        Less: Earned revenues                 –          –             (9)           –            –             –              –         –               (9)
        Net Program Costs                     –          –          5,876            –            –             –              –        (5)          5,871

                                                                                                                                      (continued on next page)

                                                                                                                                                                 60
                                                                                                                              APPENDIX IV
                                                                                                                                  34 of 50


                                       U.S.Agency for International Development

                              SCHEDULE OF COSTS BY RESPONSIBILITY SEGmENT (continued)

                                        For the Year Ended September 30, 2006

                                                 (Dollars in Thousands)


                                                                                                                         Latin       Intra-
                                                    Asia &                                    Europe &    Global       America &    Agency    Consolidated
Goal                                   Africa      Near East       DCHA           EGAT         Eurasia    Health       Caribbean Eliminations    Total
Democracy and Human Rights
  develop transparent and accountable democratic institutions
     Gross Costs                  106,982     415,381         10,711                     –     310,146             –     143,190       (298)        986,112
     Less: Earned revenues            (979)       (271)          (12)                    –        (739)            –        (303)        64           (2,241)
     Net Program Costs            106,003     415,110         10,699                     –     309,407             –     142,887       (234)        983,871
    universal standards protect human rights
       Gross Costs                           –          5,510           10,035           –           –             –      15,733        (10)         31,268
       Less: Earned revenues                 –             (2)          (1,444)          –           –             –         (32)        37           (1,441)
       Net Program Costs                     –          5,508            8,591           –           –             –      15,701         27          29,827

Economic Prosperity and Security
   Enhanced food security and agricultural development
        Gross Costs                      195,605        32,278       868,754       55,943            1             –      70,644       (207)      1,223,018
        Less: Earned revenues                (534)          (26)          (1)        (181)           –             –        (155)        26            (871)
        Net Program Costs                195,071        32,252       868,753       55,762            1             –      70,489       (181)      1,222,147
   Increased trade and investment
        Gross Costs                        65,795      185,334             –         8,787           –             –      41,178       (110)        300,984
        Less: Earned revenues                (319)        (132)            –           (39)          –             –         (87)        16            (561)
        Net Program Costs                  65,476      185,202             –         8,748           –             –      41,091        (94)        300,423
   Institutions, laws, and policies foster private sector led growth
        Gross Costs                        62,929 1,392,969                –       29,381      297,217             –      99,018       (590)      1,880,924
        Less: Earned revenues                 (91)      (1,816)            –        (8,352)       (639)            –        (290)      250          (10,938)
        Net Program Costs                  62,838 1,391,153                –       21,029      296,578             –      98,728       (340)      1,869,986
   Secure and stable financial and energy markets
        Gross Costs                             –       73,073             –         4,699      45,891             –         (35)       (73)        123,555
        Less: Earned revenues                   –           (65)           –           (13)       (109)            –           –          5            (182)
        Net Program Costs                       –       73,008             –         4,686      45,782             –         (35)       (68)        123,373

Social and Environmental Issues
   broader access to quality education with an emphasis on primary school completion
       Gross Costs                   122,027     449,740             –      22,406              12,103             –      36,275       (201)        642,351
       Less: Earned revenues             (300)      (346)            –         (68)                (32)            –         (78)        24            (800)
       Net Program Costs             121,727     449,394             –      22,338              12,071             –      36,197       (177)        641,551
   Improved global health
       Gross Costs                   920,307     662,570           282         398             144,732    756,887        194,047     (1,060)      2,678,163
       Less: Earned revenues           (2,201)      (505)            –          (1)               (359)    (57,681)         (438)     1,539         (59,646)
       Net Program Costs             918,106     662,065           282         397             144,373    699,206        193,609       479        2,618,517
    Partnerships, initiatives, and implemented international treaties
        Gross Costs                       45,976     145,386                 –    193,829       30,452             –      45,375       (230)        460,788
        Less: Earned revenues               (124)        (103)               –    (125,740)        (75)            –         (98)     1,699        (124,441)
        Net Program Costs                 45,852     145,283                 –     68,089       30,377             –      45,277      1,469         336,347

                                                                                                                                       (continued on next page)




                                                                                                                                               61
                                                                                                                                           APPENDIX IV
                                                                                                                                               35 of 50


                                       U.S.Agency for International Development

                              SCHEDULE OF COSTS BY RESPONSIBILITY SEGmENT (continued)

                                        For the Year Ended September 30, 2006

                                                 (Dollars in Thousands)


                                                                                                                      Latin       Intra-
                                                  Asia &                                   Europe &    Global       America &    Agency    Consolidated
Goal                                  Africa     Near East       DCHA           EGAT        Eurasia    Health       Caribbean Eliminations    Total
Humanitarian Response
  Effective protection, assistance, and durable solutions for refugees
      Gross Costs                       38,930       12,863        538,743             –     17,169             –      34,766       (519)      641,952
      Less: Earned revenues               (110)         (10)          (559)            –        (47)            –         (82)        24          (784)
      Net Program Costs                 38,820       12,853        538,184             –     17,122             –      34,684       (495)      641,168
   Improved capacity of host countries to reduce vulnerabilities to disasters
      Gross Costs                       1,370      89,574          15,858              –      1,082             –      53,211        (75)      161,020
      Less: Earned revenues                (5)        (53)            (17)             –         (4)            –        (141)         6          (214)
      Net Program Costs                 1,365      89,521          15,841              –      1,078             –      53,070        (69)      160,806

management and Organizational Excellence
  A high performing, well-trained, and diverse workforce
      Gross Costs                           –           –             –      10,914            –           –             –           (6)     10,908
      Less: Earned revenues                 –           –             –          (44)          –           –             –            2         (42)
      Net Program Costs                     –           –             –      10,870            –           –             –           (4)     10,866
  Customer-oriented, innovative delivery of administrative and information services
      Gross Costs                           –           –             –          147           –           –             –           (1)        146
      Less: Earned revenues                 –           –             –           (1)          –           –             –            –          (1)
      Net Program Costs                     –           –             –          146           –           –             –           (1)        145
  Integrated budgeting, planning, and performance management; effective financial management; and demonstrated financial accountability.
      Gross Costs                           –           –             –        2,033           –           –             –           (8)      2,025
      Less: Earned revenues                 –           –             –           (6)          –           –             –            –          (6)
      Net Program Costs                     –           –             –        2,027           –           –             –           (8)      2,019
  modernized, secure, and high quality information technology management and infrastructure that meet critical business requirements.
      Gross Costs                       1,996           –             –            –           –           –             –        (10)        1,986
      Less: Earned revenues                (8)          –             –            –           –           –             –            –          (8)
      Net Program Costs                 1,988           –             –            –           –           –             –        (10)        1,978
Net Costs of Operations           $ 1,583,003 $4,403,635 $ 1,658,999 $ 200,172 $ 962,123 $ 699,206 $ 846,586 $                        – $ 10,353,724




                                                                                                                                                          62
                                                                                                 APPENDIX IV
                                                                                                     36 of 50


NOTE 19. STATEmENT OF BUDGETARY RESOURCES
A. Apportionment Categories of Obligations Incurred:(Dollars in Thousands)

                                                                                          FY 2006             FY 2005
Category A, direct                                                                    $     731,684       $     711,346
Category b, direct                                                                        10,829,818          12,272,395
Category A, reimbursable                                                                      5,526               8,990
Category b, reimbursable                                                                     64,750              50,222
Total                                                                                 $ 11,631,778        $ 13,042,953



B. Borrowing Authority, End of Period and Terms of           authority for Credit reform Program appropriations for
Borrowing Authority Used:                                    subsidy reestimates, and Credit reform Act of 1990.

For credit financing activities, borrowing authority for
FY 2006 was $52 million. For FY 2005 borrowing authority     E. Legal Arrangements Affecting the Use of Unobligated
was $310 million. In FY 2005, the borrowing authority        Balances:
number was transposed, reading as $31.9 instead of $310      Pursuant to Section 511 of PL 107-115 funds shall remain
million.                                                     available until expended if such funds are initially obligated
borrowing Authority is indefinite and authorized under       before the expiration of their periods of availability. Any
the Credit reform Act of 1990 (P.L. 101-508), and is used    subsequent recoveries (deobligations) of these funds
to finance obligations during the current year, as needed.   become unobligated balances that are available for
                                                             reporogramming by uSAId (subject to Omb approval
                                                             through the apportionment process).
C. Adjustments to Beginning Balance of Budgetary
Resources:

There were no differences for FY 2006 between prior
year and current year beginning balances.


D. Permanent Indefinite Appropriations:

uSAId has permanent indefinite appropriations relating
to specific Credit reform Program and Liquidating
appropriations. uSAId is authorized permanent indefinite




                                                                                                                63
                                                                                                        APPENDIX IV
                                                                                                            37 of 50


NOTE 20. STATEmENT OF FINANCING - OTHER

Explanation of the Relationship Between Liabilities         transferred to other agencies are shown on the Statement
Not Covered by Budgetary Resources on the Balance           of budgetary resources, but are not shown on the
Sheet and the Change in Components Requiring or             balance Sheet nor the Statement of Net Costs. below is a
Generating Resources in Future Periods                      reconciliation of obligations and spending authority from
                                                            offsetting collections between the Statement of budgetary
Contingent liabilities for Loan Guarantees on the balance   resources and the Statement of Financing.
Sheet represent cumulative balances, of which $48.6
million represent the Credit Subsidy expense reestimates    Changes in FY 2006 for Statement of Financing:
requiring resources in future periods. Current period
changes of $4.2 million represents the current period       An increase of Credit Program collections for both
increase in the Accrued unfunded Annual Leave Separation    liabilities and subsidies are the primary reasons for the
Pay liability, and is shown on the Statement of Financing   increase in the Total resources used to Finance items not
as a change in components requiring resources in future     part of the net cost of operations on the Statement of
period.                                                     Financing. during FY 2006,total Net Obligations decreased
                                                            by $1,040 million, and Credit Program Collections were
Explanation of the Relationship Between the                 about $1,173 million. In, FY 2005, total Net Obligations
Statement of Changes in Net Position and the                decreased by $256 million,and Credit Program Collections
Statement of Financing                                      were about $1,283 million.

Imputed Financing of $19.2 million are shown on both the    For the upward/downward re-estimates of Credit
Statement of Changes of Net Position as Other Financing     Subsidy Expense, during FY 2006, there was a net decrease
Sources and on the Statement of Financing as Other          for Credit Program subsidy re-estimates of about $594
resources.                                                  million, as compared to an upward increase in FY 2005 of
                                                            $529 million.
Description of Transfers that Appear as a Reconciling
Item on the Statement of Financing

Appropriations that are transferred from other Federal
Agencies to uSAId are not shown on the Statement of
budgetary resources, but are shown on the balance Sheet
and Statement of Net Costs. Appropriations that are




                                                                                                                        64
                                                                                       APPENDIX IV
                                                                                           38 of 50


         Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources on the
        Balance Sheet and the Change in Components Requiring or Generating Resources in Future Periods
                                             (Dollars in Thousands)

Obligations Incurred, Statement of budgetary resources                                        $ 9,188,767
   Less:Transfers to Other Agencies
       department Of State                                                       (282,569)
       Nuclear regulatory Commission                                               (1,463)
       Others                                                                      (2,005)        (286,037)
   Add:Transfers from Other Agencies

       department of Agriculture                                                1,184,686
       department of State                                                      1,255,916
       Executive Office of the President                                          180,103
       Other                                                                      108,345        2,729,050
Obligations Incurred, Statement of Financing                                                    11,631,780


Offsetting Collections and recoveries, Statement of budgetary resources                          1,595,132
   Less:Transfers to Other Agencies
       department of State                                                        (24,350)
       u.S.Treasury department                                                       (890)
       Other                                                                          (22)         (25,262)
   Add:Allocations from Other Agencies
       Executive Office of the President                                          118,245
       department of Agriculture                                                  113,073
       Other                                                                         707          232,025
Offsetting Collections and recoveries, Statement of Financing                                 $ 1,801,805




                                                                                                   65
                                                                                                                                       APPENDIX IV
                                                                                                                                           39 of 50


                                                        U.S.Agency for International Development

                                                          CONSOLIDATING BALANCE SHEET

                                                               As of September 30, 2006

                                                                 (Dollars in Thousands)


                                                       Credit                                                                              Intra-
                                                      Program        Program       Operating Revolving         Trust          Other       Agency
                                                       Funds          Funds         Funds     Funds            Funds          Funds     Elimination          Total

ASSETS
  Intragovernmental
     Fund balance with Treasury (Note 2)             $ 1,793,844    $ 16,073,773   $ 1,406,986    $   5,887   $ 52,050          843      $         –    $ 19,333,383
     Accounts receivable (Note 3)                         84,749              –            217            –          –            3          (84,749)           220
     Other Assets (Note 4)                                     –         24,125            749            –          –            –                –         24,874
  Total Intragovernmental                              1,878,593     16,097,898      1,407,952        5,887    $52,050          846          (84,749)    19,358,477

      Cash and Other monetary Assets (Note 5)                 50              –       327,548            –          –              –               –        327,598
      Accounts receivable, Net (Note 3)                   59,954         24,335         1,208            1          –          5,675               –         91,173
      Loans receivable, Net (Note 6)                   4,810,615              –             –            –          –              –               –      4,810,615
      Inventory and related Property, Net (Note 7)             –         38,450        14,895            –          –              –               –         53,345
      General Property, Plant, and
         Equipment, Net (Note 8 and 9)                         –            124        103,870            –          –             –               –        103,994
      Advances and Prepayments (Note 4)                      139        389,124         16,379           19        237             –               –        405,898
   Total Assets                                        6,749,351     16,549,931      1,871,852        5,907     52,287         6,521         (84,749)    25,151,100


LIABILITIES (Note 16)
  Intragovernmental
        Accounts Payable (Note 10)                        84,522         47,864        14,301          138          –              –         (84,749)        62,076
        debt (Note 11)                                   474,055              –             –            –          –              –               –        474,055
        due to u.S.Treasury (Note 11)                  4,491,077              –             –            –          –              –               –      4,491,077
        Other Liabilities (Note 12)                       24,270              7        11,823            1         29          6,521               –         42,651
      Total Intragovernmental                          5,073,924         47,871        26,124          139         29          6,521         (84,749)     5,069,859

   Accounts Payable (Note 10)                             50,361      1,857,669       350,220         1,550      7,921            –                –      2,267,721
   Loan Guarantee Liability (Note 6)                   1,660,909              –             –             –          –            –                –      1,660,909
   Federal Employees and Veteran’s benefits
      (Note 14)                                                –              –        23,438             –          –             –               –         23,438
   Other Liabilities (Note 12, 13, and 14)                 7,923          2,488       370,146         2,433     45,798             –               –        428,788
   Total Liabilities                                   6,793,117      1,908,028       769,928         4,122     53,748         6,521         (84,749)     9,450,715

   Commitments and Contingencies (Note 15)                     –              –          3,000           –           –            –                –           3,000

NET POSITION
  unexpended Appropriations                               47,612     14,290,465         (3,522)         152        112            –                –     14,334,819
  Cumulative results of Operations                       (91,378)       351,438      1,102,446        1,633     (1,573)           –                –      1,362,566
  Total Net Position                                     (43,766)    14,641,903      1,098,924        1,785     (1,461)           –                –     15,697,385

Total Liabilities and Net Position                   $ 6,749,351    $ 16,549,931   $ 1,871,852    $   5,907   $ 52,287    $    6,521     $ (84,749)     $25,151,100




                                                                                                                                                        66
                                                                                                                  APPENDIX IV
                                                                                                                      40 of 50


                                          U.S.Agency for International Development

                                        CONSOLIDATING STATEmENT OF NET COST

                                           For the Year Ended September 30, 2006

                                                    (Dollars in Thousands)


                                       Credit                                                                        Intra-
                                      Program   Program        Operating Revolving        Trust       Other         Agency         Total
              Goal                     Funds     Funds          Funds     Funds           Funds       Funds       Elimination     Amount

Regional Stability
   Intragovernmental Costs          $      –    $     9,850    $ 18,381     $      14     $       3   $    (82)   $   (175)      $     27,991
   Public Costs                            –        606,793      34,217           506         1,121         82           –            642,719
       Total Costs                         –        616,643      52,598           520         1,124          –        (175)           670,710
   Intragovernmental Earned revenue        –            (60)       (287)         (562)            –       (108)         25               (992)
   Public Earned revenue                   –              –          (3)           28             –        108           –                133
       Less Total Earned revenues          –            (60)       (290)         (534)            –          –          25               (859)
   Net Program Costs                       –        616,583      52,308           (14)        1,124          –        (150)           669,851

Counterterrorism
  Intragovernmental Costs                  –          9,699       11,232            9            2         (50)       (131)            20,761
  Public Costs                             –        598,257       20,909          309          685          50           –            620,210
      Total Costs                          –        607,956       32,141          318          687           –        (131)           640,971
  Intragovernmental Earned revenue         –              –         (176)        (343)           –         (66)         15               (570)
  Public Earned revenue                    –              –           (2)          17            –          66           –                 81
      Less Total Earned revenues           –              –         (178)        (326)           –           –          15               (489)
  Net Program Costs                        –        607,956       31,963           (8)         687           –        (116)           640,482

International Crime and Drugs
    Intragovernmental Costs                –            561        5,157            4            1         (23)        (35)             5,665
    Public Costs                           –         84,853        9,599          142          314          23           –             94,931
       Total Costs                         –         85,414       14,756          146          315           –         (35)           100,596
   Intragovernmental Earned revenue        –              –          (81)        (158)           –         (30)          7               (262)
   Public Earned revenue                   –             (4)          (1)           8            –          30           –                 33
       Less Total Earned revenues          –             (4)         (82)        (150)           –           –           7               (229)
   Net Program Costs                       –         85,410       14,674           (4)         315           –         (28)           100,367

Democracy and Human Rights
  Intragovernmental Costs                  –         13,285       36,367            28            6       (162)       (308)             49,216
  Public Costs                             –        897,086       67,697         1,002        2,217        162           –             968,164
      Total Costs                          –        910,371      104,064         1,030        2,223          –        (308)          1,017,380
  Intragovernmental Earned revenue         –         (2,153)        (568)       (1,112)           –       (213)        101              (3,945)
  Public Earned revenue                    –              –           (5)           55            –        213           –                 263
      Less Total Earned revenues           –         (2,153)        (573)       (1,057)           –          –         101              (3,682)
  Net Program Costs                        –        908,218      103,491           (27)       2,223          –        (207)          1,013,698
                                                                                                                        (continued on next page)




                                                                                                                                  67
                                                                                                                             APPENDIX IV
                                                                                                                                 41 of 50


                                     U.S.Agency for International Development

                                CONSOLIDATING STATEmENT OF NET COST (continued)

                                       For the Year Ended September 30, 2006

                                                (Dollars in Thousands)


                                       Credit                                                                     Intra-
                                      Program     Program      Operating Revolving       Trust     Other         Agency         Total
              Goal                     Funds       Funds        Funds     Funds          Funds     Funds       Elimination     Amount

Economic Prosperity and Security
   Intragovernmental Costs             24,895        51,923       81,108          61         14        (356)        (980)        156,665
   Public Costs                        56,791     2,281,823    1,025,752       2,208      4,886         356            –       3,371,816
       Total Costs                     81,686     2,333,746    1,106,860       2,269      4,900           –         (980)      3,528,481
   Intragovernmental Earned revenue    (6,747)         (990)      (1,252)     (2,451)         –        (470)         297         (11,613)
   Public Earned revenue               (1,518)            –          (12)        121          –         470            –            (939)
       Less Total Earned revenues      (8,265)         (990)      (1,264)     (2,330)         –           –          297         (12,552)
   Net Program Costs                   73,421     2,332,756    1,105,596         (61)     4,900           –         (683)      3,515,929

Social and Environmental Issues
   Intragovernmental Costs                   –      116,593      123,606          94         21        (550)       (1,491)       238,273
   Public Costs                        133,034    3,168,411      230,093       3,405      7,536         550             –      3,543,029
       Total Costs                     133,034    3,285,004      353,699       3,499      7,557           –        (1,491)     3,781,302
   Intragovernmental Earned revenue    (67,440)     (57,140)      (1,932)     (3,779)         –        (724)        3,262       (127,753)
   Public Earned revenue               (58,026)           –          (18)        186          –         724             –        (57,134)
       Less Total Earned revenues     (125,466)     (57,140)      (1,950)     (3,593)         –           –         3,262       (184,887)
   Net Program Costs                     7,568    3,227,864      351,749         (94)     7,557           –         1,771      3,596,415

Humanitarian Response
  Intragovernmental Costs                    –       72,779       22,907         17           4        (102)        (594)         95,011
  Public Costs                               –      663,189       42,642        631       1,397         102            –         707,961
      Total Costs                            –      735,968       65,549        648       1,401           –         (594)        802,972
  Intragovernmental Earned revenue           –            –         (358)      (700)         (1)       (134)          30          (1,163)
  Public Earned revenue                      –            –           (3)        34           –         134            –             165
      Less Total Earned revenues             –            –         (361)      (666)         (1)          –           30            (998)
  Net Program Costs                          –      735,968       65,188        (18)      1,400           –         (564)        801,974

management and Organizational Excellence
  Intragovernmental Costs                 –            2,793        1,313         1           –          (6)         (25)          4,076
  Public Costs                            –            8,424        2,443        36          80           6            –          10,989
      Total Costs                         –           11,217        3,756        37          80           –          (25)         15,065
  Intragovernmental Earned revenue        –                –          (21)      (40)          –          (8)           2             (67)
  Public Earned revenue                   –                –            –         2           –           8            –              10
      Less Total Earned revenues          –                –          (21)      (38)          –           –            2             (57)
  Net Program Costs                       –           11,217        3,735        (1)         80           –          (23)         15,008
  Net Costs of Operations          $ 80,989       $8,525,972   $1,728,704    $ (227)    $18,286    $      –    $       –      $10,353,724




                                                                                                                                            68
                                                                                                              APPENDIX IV
                                                                                                                  42 of 50


                                      U.S.Agency for International Development
                             CONSOLIDATING STATEmENT OF CHANGES IN NET POSITION
                                       For the Year Ended September 30, 2006
                                                (Dollars in Thousands)

                                               Credit
                                              Program       Program         Operating Revolving          Trust      Other
                                               Funds         Funds           Funds     Funds             Funds      Funds       Total
  beginning balances                          $ (335,271) $     338,501 $      756,887     $   1,633    $ (1,248) $     – $     760,502
  Adjustments                                          –               –              –           –            –        –            –
     Changes in Accounting Principles                  –               –              –           –            –        –            –
     Corrections of Errors                             –               –              –           –            –        –            –
  beginning balances, as adjusted               (335,271)       338,501        756,887         1,633      (1,248)       –       760,502

Budgetary Financing Sources:
     Other Adjustments (recissions, etc)               –               –              –           –            –        –            –
     Appropriations used                         324,873       8,538,718       812,046            (4)      (112)        –      9,675,521
     Non-exchange revenue                              –               –              –           –            –        –            –
     donations and Forfeitures of Cash and
       Cash Equivalents                                9            191         53,912         (223)      18,073        –        71,962
     Transfers–in/out Without reimbursement            –               –      1,189,017           –            –        –      1,189,017
     Other                                             –               –              –           –            –        –            –
Other Financing Sources (Non-exchange):
     donations and Forfeitures of Property             –               –              –           –            –        –            –
     Transfers–in/out Without reimbursement            –               –                          –            –        –            –
     Imputed Financing                                 –               –        19,288            –            –        –        19,288
     Other                                             –               –              –           –            –        –            –
  Total Financing Sources                        324,882       8,538,909      2,074,263        (227)      17,961        –     10,955,788
  Net Cost of Operations                         (80,989)     (8,525,972)    (1,728,704)        227      (18,286)       –   (10,353,724)
  Net Change                                     243,893         12,937        345,559                     (325)        –       602,064


Cumulative Results of Operations:                (91,378)       351,438       1,102,446        1,633      (1,573)       –      1,362,566


Unexpended Appropriations:
  beginning balance                               47,170      13,026,593        (69,737)        148            –        –     13,004,174
  Adjustments                                          –               –              –           –            –        –            –
     Changes in Accounting Principles                  –               –              –           –            –        –            –
     Corrections of Errors                             –               –              –           –            –        –            –
  beginning balances, as adjusted                 47,170      13,026,593        (69,737)        148            –        –     13,004,174

Budgetary Financing Sources:
     Appropriations received                     320,560       9,039,630       878,700            –            –        –     10,238,890
     Appropriations Transferred in/out             4,834        833,321          6,921            –            –        –       845,076
     Other Adjustments                               (80)        (70,360)        (7,360)          –            –        –        (77,800)
     Appropriations used                        (324,872)     (8,538,719)     (812,046)           4         112         –     (9,675,521)
  Total budgetary Financing Sources                 442        1,263,872        66,215            4         112         –      1,330,645
  Total unexpended Appropriations                 47,612      14,290,465         (3,522)        152         112         –     14,334,819
Net Position                                  $ (43,766) $14,641,903 $ 1,098,924           $ 1,785      $ (1,461) $     – $ 15,697,385


                                                                                                                              69
                                                                                                                    APPENDIX IV
                                                                                                                        43 of 50


                                               U.S.Agency for International Development

                                       CONSOLIDATING STATEmENT OF BUDGETARY RESOURCES

                                                For the Year Ended September 30, 2006

                                                         (Dollars in Thousands)


                                        Credit
                                       Program       Program        Operating Revolving Trust       Other    Credit-
                                        Funds         Funds          Funds     Funds    Funds       Funds   Financing Allocations         Total
Budgetary Resources:
   unobligated balance,
      brought Forward, October 1       $ 858,482     $2,215,797      $ 70,098    $2,740 $ 4,090 $       –   $ 1,024,789   111,200 $ 4,287,196
   recoveries of Prior Year
      unpaid Obligations                   6,190        221,565        27,267      155      1,373       –            –     20,221          276,771
   budget Authority
      Appropriations                     370,560       9,039,630      878,700         –    32,387       –            –          –        10,321,277
      borrowing Authority                       –              –            –         –         –       –       52,026                      52,026
      Contract Authority                        –              –            –         –         –       –            –          –                –
      Spending Authority from
          Offsetting Collections                –              –            –         –         –       –            –          –                 –
      Earned
          Collected                      786,276         60,347         4,718     9,702         –       –      447,625      1,421         1,310,089
          Changed in receivables
              from Federal Sources              –              –            –         –         –       –            –      3,620             3,620
      Change in unfilled Customer
          Orders
          Advance received                      –              –            –         –         –       –            –          –                 –
          Without Advance from
              Federal Sources                   –         4,402          808       (558)        –       –            –          –             4,652
      Anticipated for rest of Year,
          Without Advances                      –              –            –         –         –       –            –          –                 –
      Previously unavailable                    –              –            –         –         –       –            –          –                 –
      Expenditure Transfers from
          Trust Funds                           –              –            –         –         –       –            –          –                 –
      Subtotal                          1,156,836      9,104,379      884,226     9,144    32,387       –      499,651      5,041        11,691,664
   Nonexpenditure Transfers, Net,
      Anticipated and Actual               4,834       (542,918)        6,921         –         –       –            –    198,615          (332,548)
   Temporarily not Available
      Pursuant to Public Law                    –              –            –         –         –       –            –          –                 –
   Permanently not Available           (1,332,255)       (74,140)      (7,946)        –         –       –            –          –        (1,414,341)
Total Budgetary Resources               694,087      10,924,683      980,566     12,039    37,850       –    1,524,440    335,077    14,508,742

Status of Budgetary Resources:
   Obligations Incurred
      direct                             355,318       7,486,841      849,332     8,881    30,247       –      101,835    270,782         9,188,767
      reimbursable                              –         64,750        5,526         –         –       –            –     15,255            85,531
      Subtotal                           355,318       7,551,591      854,858     8,881    30,247       –      101,835    286,037         9,188,767
   unobligated balance:
      Apportioned                        338,576       3,364,144      125,708     3,158     7,603       –     1,422,605    46,663         5,308,457
      Exempt from Apportionment                 –              –            –         –         –       –             –         –                 –
      Subtotal                           338,576       3,364,144      125,708     3,158     7,603       –     1,422,605    46,663         5,308,457
   unobligated balance not Available         193           8,948            –         –         –       –             –     2,377            11,518
Total Status of Budgetary
    Resources                           694,087      10,924,683      980,566     12,039    37,850       –    1,524,440    335,077    14,508,742

                                                                                                                             (continued on next page)



                                                                                                                                    70
                                                                                                                                      APPENDIX IV
                                                                                                                                          44 of 50


                                                U.S.Agency for International Development

                                    CONSOLIDATING STATEmENT OF BUDGETARY RESOURCES (continued)

                                                 For the Year Ended September 30, 2006

                                                          (Dollars in Thousands)


                                            Credit
                                           Program       Program       Operating Revolving Trust             Other       Credit-
                                            Funds         Funds         Funds     Funds    Funds             Funds      Financing Allocations        Total

Change in Obligated Balance:
   Obligated balance, Net
      unpaid Obligations,
           brought Forward, October 1          39,773     9,976,701      232,834        1,588     32,607           –         3,288        3,527     10,290,318
      Less: uncollected Customer
           Payments from Federal
           Sources, brought Forward,
           October 1                           (3,467)       (1,158)       (4,180)      (2,501)         –          –             –             –       (11,306)
       Total unpaid Obligated
           balance, Net                        36,306     9,975,543      228,654         (913)    32,607           –         3,288        3,527     10,279,012
   Obligations Incurred Net (+/-)             355,318     7,551,591      854,858        8,881     30,247           –      101,835       286,037      9,188,767
   Less: Gross Outlays                       (356,742)   (6,731,176)     (861,246)      (5,642)   (17,035)         –      (101,352)      45,633     (8,027,560)
   Obligated balance Transferred, Net
       Actual Transfers,
           unpaid Obligations (+/-)                 –             –             –            –          –          –             –             –              –
       Actual Transfers,
           uncollected
           Customer Payments
           Federal Sources, (+/-)                   –             –             –            –          –          –             –             –              –
           Total unpaid Obligated
               balance Transferred, Net             –             –             –            –          –          –             –             –              –
   Less: recoveries of Prior Year
       unpaid obligations, actual              (6,190)     (221,565)      (27,267)       (155)     (1,373)         –             –       (20,221)     (276,771)
   Change in uncollected
       Customer Payments from
       Federal Sources (+/-)                        –        (4,403)         (808)        558           –          –             –        (3,971)        (8,624)
   Obligated balance, Net, End of Period
       unpaid Obligations                      32,159    10,575,551      199,179        4,672     44,446           –         3,771      314,976     11,174,754
       Less: uncollected Customer
           Payments from
           Federal Sources                     (3,467)       (5,561)       (4,988)      (1,943)         –          –             –        (3,971)      (19,930)
       Total, unpaid Obligated balance,
           Net End of Period                   28,692    10,569,990      194,191        2,729     44,446           –         3,771      311,005     11,154,824

Net Outlays
   Gross Outlays                              356,742     6,731,176      861,246        5,642     17,035           –      101,352        (45,633)    8,027,560
   Less: Offsetting Collections              (786,276)      (60,347)       (4,718)      (9,702)         –          –      (447,625)            –    (1,308,668)
   Less: distributed Offsetting receipts            –             –             –            –          –    (41,784)            –             –       (41,784)
Net Outlays                                $ (429,534) $ 6,670,829      $ 856,528    $ (4,060) $17,035 $ (41,784) $ (346,273)           (45,633) $ 6,677,108




                                                                                                                                                    71
                                                                                                                                             APPENDIX IV
                                                                                                                                                 45 of 50


                                                          U.S.Agency for International Development
                                                        CONSOLIDATING STATEmENT OF FINANCING
                                                           For the Year Ended September 30, 2006
                                                                    (Dollars in Thousands)

                                                                        Credit
                                                                       Program Program Operating Revolving                     Trust      Other
                                                                        Funds   Funds   Funds     Funds                        Funds      Funds      Allocations         Total

Resources Used to Finance Activities:
   budgetary resources Obligated
      Obligations Incurred                                             $ 457,153     $7,551,591    $ 854,858     $   8,881 $ 30,247 $           –    $ 286,037         $ 9,188,767
         Appropriations Transferred to/from Other Agencies (net)                –     1,544,337     1,184,713            –           –          –      (286,037)        2,443,013
      Total Obligations Incurred                                         457,153      9,095,928     2,039,571        8,881     30,247           –             –        11,631,780
      Less: Spending Authority from Offsetting
         Collections and recoveries                                    (1,240,091)     (286,314)      (32,793)       (9,299)    (1,373)         –       (25,262)        (1,595,132)
         Spending Authority Transferred to/from Other Agencies (net)            –      (118,893)    (113,132)            –           –          –        25,262          (206,763)
         Total Spending Authority from Offsetting
            Collections and recoveries                                 (1,240,091)     (405,207)    (145,925)        (9,299)    (1,373)         –             –         (1,801,895)
      Obligations Net of Ofsetting Collections and recoveries           (782,938)     8,690,721     1,893,646         (418)    28,874           –                       9,829,885
      Less: Offsetting receipts                                                 –             –             –                        –     41,784             –            41,784
      Net Obligations                                                   (782,938)     8,690,721     1,893,646         (418)    28,874      41,784             –         9,871,669
      Other resources
         Transfers in Without reimbursement                                     –             –             –            –           –          –             –                  –
         Imputed Financing From Costs Absorbed by Others                        –             –       19,288                                    –             –            19,288
         Other (+/-)                                                            –             –             –            –           –          –             –                  –
         Net Other resources used to Finance Activities                         –             –       19,288             –           –          –                          19,288
      Total resources used to Finance Activities                        (782,938)     8,690,721     1,912,934         (418)    28,874      41,784             –         9,890,957

Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources Obligated for Goods,
     Services and benefits Ordered but not yet Provided                    5,299       446,625      (352,075)        (2,021)    (8,896)         –             –            88,932
   resources that Fund Expenses recognized in Prior Periods                     –        (1,927)         750                                (775)             –             (1,952)
   budgetary Offsetting Collections and receipts that do not Affect
     Net Cost of Operations                                                     –             –             –            –           –          –             –                  –
      Credit Program Collections which increase Liabilities
        for Loan Guarantees or Allowances for Subsidy                  1,173,507              –             –            –           –          –             –         1,173,507
      Other                                                             (133,731)             –       54,098         1,007           1    (44,373)            –          (122,998)
   resources That Finance the Acquisition of Assets                             –        (7,646)      (47,529)           –           –          –             –           (55,175)
   Other resources or Adjustments to Net Obligated resources
     that do not Affect Net Cost of Operations (+/-)                      93,171       (601,170)     118,269         1,205      (1,693)         –             –          (390,218)
Total resources used to Finance Items not Part
   of Net Cost of Operations                                           1,138,246       (164,118)    (226,487)          191     (10,588)   (45,148)            –           692,096
Total resources used to Finance Net Cost of Operations                   355,308      8,526,603     1,686,447         (227)    18,286      (3,364)            –        10,583,053
                                                                                                                                                          (continued on next page)




                                                                                                                                                                  72
                                                                                                                                        APPENDIX IV
                                                                                                                                            46 of 50


                                                    U.S.Agency for International Development
                                              CONSOLIDATING STATEmENT OF FINANCING (continued)
                                                      For the Year Ended September 30, 2006
                                                               (Dollars in Thousands)

                                                                 Credit
                                                                Program Program Operating Revolving               Trust        Other
                                                                 Funds   Funds   Funds     Funds                  Funds        Funds     Allocations      Total

Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
   Components requiring or Generating resources
     in Future Periods:
      Increase in Annual Leave Liability                                –            –         4,265          –         –          –             –           4,265
      upward/downward reestimates of Credit Subsidy Expense      (274,319)           –             –          –         –          –             –        (274,319)
      Increase in Exchange revenue receivable from the Public           –            –            –           –         –          –             –                –
   Total Components requiring or Generating resources
      in Future Periods                                          (274,319)           –         4,265          –         –          –             –        (270,054)
   Components not requiring or Generating resources:
      depreciation and Amortization                                     –          275       29,292           –         –          –             –          29,567
      revaluation of Assets or Liabilities                              –           62         8,716          –         –          –             –           8,778
      Other                                                             –         (968)          (16)         –         –       3,364            –           2,380
   Total Components not requiring or Generating resources               –         (631)      37,992           –         –       3,364            –          40,725
Total Components of the Net Cost of Operations that will not
   require or Generate resources in the Current Period:          (274,319)        (631)      42,257           –         –       3,364            –        (229,329)
Net Cost of Operations                                          $ 80,989     $8,525,972   $1,728,704    $   (227) $ 18,286 $       –     $       –     $ 10,353,724




                                                                                                                                                       73
                                                                                                     APPENDIX IV
                                                                                                         47 of 50



INTrAGOVErNmENTAL

ASSETS ANd LIAbILITIES

                                U.S.Agency for International Development

                REqUIRED SUPPLEmENTARY INFORmATION: INTRAGOvERNmENTAL AmOUNTS

                                        as of September 30, 2006

                                         (Dollars in Thousands)




INTRAGOvERNmENTAL ASSETS:

                                                                     Accounts        Advances
                                                    Fund Balance    Receivable,         and
                           Agency                   with Treasury      Net          Prepayments        Totals
Treasury                                             $19,333,383    $          –     $       300     $ 19,333,683
dept of Agriculture                                           –            294             3,741           4,035
dept of Commerce                                              –                –             211            211
dept of State                                                 –                15         13,481         13,496
Other                                                         –            (89)            7,142           7,052
Total                                                $19,333,383    $      220       $    24,874     $ 19,358,477




INTRAGOvERNmENTAL LIABILITIES:

                                       Due to         Accounts
                  Agency              Treasury         Payable          Debt             Other         Totals
Treasury                              $ 4,491,077    $    2,442     $   474,055      $    24,790     $ 4,992,364
GSA                                            –         20,671                 –          (3,932)        16,739
dept of Agriculture                            –          9,999                 –          (1,451)         8,548
dept of Labor                                  –          (2,814)               –                –        (2,814)
dept of Health and Human Services              –          5,423                 –         (39,173)       (33,750)
Other                                          –         26,354                 –         62,416          88,770
Total                                 $ 4,491,077    $   62,076     $   474,055      $    48,733     $ 5,069,859




INTRAGOvERNmENTAL EARNED REvENUES AND RELATED COSTS:

uSAId’s intragovernmental earned revenues are not greater than $500 million. As such, intragovernmental earned
revenues and related costs by trading partner are not required to be reported.




                                                                                                                    74
                                                                                                                                                                    APPENDIX IV
                                                                                                                                                                        48 of 50



STATEmENT OF budGETArY rESOurCES

                                              U.S.Agency for International Development

                            REqUIRED SUPPLEmENTARY INFORmATION: SCHEDULE OF BUDGETARY RESOURCES

                                              For the period ended September 30, 2006

                                                       (Dollars in Thousands)


                                                                                                                                                                                Allocations
                                                                                                                                                      Credit-                    to Other Consolidated
                                                   Operating                                        Program                                          Financing    Other          Agencies    Total
                                                     1000       1010         1021        1029       1035        1037        1093        1095

Budgetary Resources
unobligated balance, brought forward, October 1    $ 52,406 $ 71,857 $ 131,007 $ 34,314 $ 76,714 $1,503,532 $ 177,170 $ 193,107 $ 1,162,039 $                       773,850 $ 111,200      $     4,287,196
recoveries of prior year unpaid obligations          26,103       9,103       25,812        105     20,632     141,595         3,610      15,029             –       14,561       20,221         276,771
budget Authority
   Appropriations                                    731,000    361,000     1,540,500           –   582,630    4,333,500    514,000     1,668,000            –      590,647           –         10,321,277
   borrowing Authority (Note 20)                            –          –            –           –          –           –           –            –       52,026             –          –            52,026
   Contract Authority                                       –          –            –           –          –           –           –            –            –             –          –                  –
   Spending Authority from
      Offsetting Collections                                –          –            –           –          –           –           –            –            –             –          –                  –
   Earned
       Collected                                       4,401           –         662            –      489        1,555          28           50       465,051      836,432        1,421         1,310,089
       Change in receivables from Federal
          Sources                                           –          –            –           –          –           –           –            –            –             –       3,620             3,620
   Change in unfilled Customer Orders
       Advance received                                     –          –            –           –          –           –           –            –            –             –          –                  –
       Without Advance from Federal Sources             (492)        19          369            –      564         (390)         20        3,816             –          746           –              4,652
   Anticipated for rest of Year,
      Without Advances                                      –          –            –           –          –           –           –            –            –             –          –                  –
   Previously unavailable                                   –          –            –           –          –           –           –            –            –             –          –                  –
   Expenditure Transfers from Trust Funds
   Subtotal                                          734,909    361,019     1,541,531           –   583,683    4,334,665    514,048     1,671,866      517,077    1,427,825        5,041        11,691,664
Nonexpenditure transfers, net,Anticipated and
Actual                                                 7,051    (113,090)     (10,545)   (18,188)     1,290    (410,417)    (151,408)     58,854             –      105,290      198,615          (332,548)
Temporarily not Available Pursuant to Public Law
Permanently Not Available                             (6,849)     (4,917)     (15,491)          –    (3,650)     (28,154)     (5,679)     (15,850)           –    (1,333,751)         –         (1,414,341)
Total Budgetary Resources                            813,620    323,972     1,672,314     16,231    678,669    5,541,221    537,741     1,923,006     1,679,116     987,775      335,077        14,508,742


Status of Budgetary Resources:
Obligations Incurred (Note 20):
   direct                                            693,018    243,545     1,545,233     16,220    612,646    3,019,007    381,462     1,630,610      101,835      588,878      270,782         9,103,236
   reimbursible                                        3,910         19         1,031           –     1,053       1,165          48        3,866             –       59,184       15,255           85,531
   Subtotal                                          696,928    243,564     1,546,264     16,220    613,699    3,020,173    381,510     1,634,476      101,835      648,062      286,037         9,188,767
unobligated balance:                                                                                       –           –           –            –            –             –          –                  –
   Apportioned                                       116,692     80,048       123,651         11     64,465    2,517,973    156,230      285,923      1,577,281     339,519       46,663         5,308,457
   Exempt from Apportionment                                                                               –           –           –            –            –             –          –                  –
   Subtotal                                          116,692     80,048       123,651         11     64,465    2,517,973    156,230      285,923      1,577,281     339,519       46,663         5,308,457
unobligated balance not Available                           –       360        2,399           –       505        3,076            –       2,607             –          194        2,377           11,518
Total, Status of Budgetary Resources                 813,620    323,972     1,672,314    16,231     678,669    5,541,221    537,741     1,923,006     1,679,116     987,775      335,077        14,508,742

                                                                                                                                                                                  (continued on next page)




                                                                                                                                                                                           75
                                                                                                                                                                       APPENDIX IV
                                                                                                                                                                           49 of 50




                                       U.S.Agency for International Development

                 REqUIRED SUPPLEmENTARY INFORmATION: SCHEDULE OF BUDGETARY RESOURCES (continued)

                                       For the period ended September 30, 2006


                                                                                                                                                                                  Allocations
                                                                                                                                                          Credit-                  to Other Consolidated
                                                 Operating                                            Program                                            Financing    Other        Agencies    Total
                                                   1000        1010           1021         1029       1035         1037        1093         1095

Change in Obligated Balance:
Obligated balance, Net
   unpaid Obligations, brought Forward,
   October 1                                       190,808    253,496        2,485,772     433,894    630,834     3,617,339    550,399     1,969,487         3,288     151,474       3,527          10,290,318
   Less: uncollected Customer Payments from
   Federal Sources, brought Forward, October 1      (4,180)              –        (279)          –       (489)        (390)           –             –            –      (5,968)           –            (11,306)

   Total unpaid Obligated balance, Net             186,628    253,496        2,485,493     433,894    630,345     3,616,949    550,399     1,969,487         3,288     145,506       3,527          10,279,012
Obligations Incurred Net (+/-)                     696,928    243,564        1,546,264      16,220    613,699     3,020,172    381,510     1,634,476       101,835     648,062     286,037           9,188,767
Less: Gross Outlays                               (701,057)   (257,422)      (1,417,513)   (61,736)   (623,590) (2,519,258)    (440,854)   (1,358,402)    (101,352)   (592,009)     (45,633)        (8,027,560)
Obligated balance Transferred, Net
   Actual Transfers, unpaid Obligations (+/-)             –          –                –          –           –            –           –             –            –            –           –                  –
   Actual Transfers, uncollected Customer
      Payments from federal Sources, (+/-)                –          –                –          –           –            –           –             –            –            –           –                  –
   Total unpaid Obligated balance
      Transferred, Net                                    –          –                –          –           –            –           –             –            –            –           –                  –
Less: recoveries of Prior Year unpaid
   obligations, actual                             (26,103)     (9,103)        (25,812)       (105)    (20,632)   (141,595)      (3,610)     (15,029)            –     (14,561)     (20,221)          (276,771)
Change in uncollected Customer Payments from
   Federal Sources (+/-)                              492          (19)           (369)          –       (564)         390          (20)       (3,816)           –        (747)      (3,971)            (8,624)
Obligated balance, Net, End of Period
   unpaid Obligations                              160,576    230,535        2,588,711     388,273    600,311     3,976,658    487,445     2,230,532         3,771     192,966     314,976          11,174,754
   Less: uncollected Customer Payments from
      Federal Sources                               (3,688)        (19)           (648)          –      (1,053)           –         (20)       (3,816)           –      (6,715)      (3,971)           (19,930)
Total, Unpaid Obligated Balance, Net,
   End of Period                                   156,888    230,516        2,588,063     388,273    599,258     3,976,658    487,425     2,226,716         3,771     186,251     311,005          11,154,824

Net Outlays:
       Gross Outlays                               701,057    257,422        1,417,513      61,736    623,590     2,519,258    440,854     1,358,402       101,352     592,009      (45,633)         8,027,560
       Less: Offsetting Collections                 (4,401)          –            (662)          –       (489)       (1,555)        (28)          (50)    (465,051)   (836,432)           –         (1,308,668)
       Less: Offsetting receipts                          –          –                –          –           –            –           –             –            –     (41,784)           –            (41,784)
   Net Outlays                                   $ 696,656 $ 257,422 $ 1,416,851 $ 61,736 $ 623,101 $2,517,703 $ 440,826 $ 1,358,352 $ (363,699) $ (286,207) $ (45,633)                        $     6,677,108




                                                                                                                                                                                               76
                                                                                                                                    APPENDIX IV
                                                                                                                                        50 of 50


mAJOR FUNDS                                           OTHER FUNDS                                              OTHER FUNDS (continued)
Operating Funds                                       Operating Funds                                          Credit Program Funds
1000 Operating Expenses of uSAId                      1007 Operating Expenses of uSAId Inspector General       0400 mSEd Program Fund
Program Funds                                         1036 Foreign Service retirement and disability Fund      0401 uE Program Fund
1010 Special Assistance Initiatives                   Program Funds                                            0402 ukraine Program Fund
1021 development Assistance                           1012 Sahel development Program                           1264 dCA Program Fund
1029 Tsunami relief and reconstruction Fund           1014 Africa development Assistance                       4103 Economic Assistance Loans - Liquidating Fund
1035 International disaster Assistance                1023 Food and Nutrition development Assistance           4340 uE Guarantee Liquidating Fund
1037 Economic Support Fund                            1024 Population and Planning & Health dev.Asst.          4341 mSEd direct Loan Liquidating Fund
1093 Assistance for the N.I.S. Of The Former Soviet   1025 Education and Human resources, dev.Asst.            5318 Israel Admin Expense Fund
     union	                                           1027 Transition Initiatives                              Revolving Funds
1095 Child Survival and disease Programs Funds        1028 Global Fund to Fight HIV / AIdS                     4175 Property management Fund
                                                      1038 Central American reconciliation Assistance          4513 Working Capital Fund
CREDIT-FINANCING FUNDS                                1040 Sub-Saharan Africa disaster Assistance              4590 Acquisition of Property, revolving Fund
4119 Israel Guarantee Financing Fund                  1096 Latin American/Caribbean disaster recovery
4137 direct Loan Financing Fund                       1500 demobilization and Transition Fund                  ALLOCATIONS TO OTHER AGENCIES
4266 dCA Financing Fund                               Trust Funds                                              1000 Operating Expenses of uSAId
4342 mSEd direct Loan Financing Fund                  8342 Foreign Natl. Employees Separation Liability Fund
                                                                                                               1010 Special Assistance Initiatives
4343 mSEd Guarantee Financing Fund                    8502 Tech.Assist. - u.S. dollars Advance from Foreign
                                                                                                               1014 Africa development Assistance
4344 uE Financing Fund                                8824 Gifts and donations
                                                                                                               1021 development Assistance
4345 ukraine Financing Fund
                                                                                                               1027 Transition Initiatives
                                                                                                               1032 Peacekeeping Operations
                                                                                                               1035 International disaster Assistance
                                                                                                               1037 Economic Support Fund
                                                                                                               1093 Assistance for the N.I.S. Of The Former Soviet
                                                                                                                    union
                                                                                                               1095 Child Survival and disease Programs Funds
                                                                                                               1096 International Organizations + Programs
                                                                                                               1500 demobilization and Transition Fund




                                                                                                                                                         77
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
